<html>
<title> - NATIONAL PARKS LEGISLATION</title>
<body><pre>[Senate Hearing 112-224]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 112-224
 
                       NATIONAL PARKS LEGISLATION

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON

                      ENERGY AND NATURAL RESOURCES

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

              S. 544                                S. 1347

              S. 1083                               S. 1421

              S. 1084                               S. 1478

              S. 1303                               S. 1537
                                                                                                                                                            
              S. 1325



                                     

                               __________

                            OCTOBER 19, 2011

                       Printed for the use of the
               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE
72-435                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado, Chairman

MARY L. LANDRIEU, Louisiana          RAND PAUL, Kentucky
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
AL FRANKEN, Minnesota                ROB PORTMAN, Ohio
JOE MANCHIN, III, West Virginia      DEAN HELLER, Nevada
CHRISTOPHER A. COONS, Delaware       BOB CORKER, Tennessee

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Inouye, Hon. Daniel K., U.S. Senator From Hawaii.................     2
Johnson, Hon. Tim, U.S. Senator From South Dakota................     4
Landrieu, Hon. Mary L., U.S. Senator From Louisiana..............     5
Shaddox, William D., Acting Associate Director for Park Planning, 
  Facilities, and Lands, National Park Service, Department of the 
  Interior.......................................................    10
Suit, Terrie, Secretary of Veterans Afffairs & Homeland Security, 
  Commonwealth of Virginia.......................................    21
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1
Warner, Hon. Mark R., U.S. Senator From Virginia.................     6

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    31

                              Appendix II

Additional material submitted for the record.....................    33


                       NATIONAL PARKS LEGISLATION

                              ----------                              


                      WEDNESDAY, OCTOBER 19, 2011

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. Subcommittee on National Parks will come to 
order. This afternoon the Subcommittee on National Parks is 
considering 9 bills authorizing studies of or designating new 
National Park's trails or memorials including the following:
    S. 544 authorizing a study to determine the best way to 
commemorate the Buffalo Soldier's role in the early years of 
the National Parks.
    S. 1083 authorizing a study of the Smoky Hill Trail which 
extends from Kansas to Colorado.
    S. 1084 authorizing a study of the Shawnee Trail, a cattle 
trail out of Kansas. Both trails would be studied for potential 
additions to the National Trail System.
    S. 1303 which would designate Fort Monroe in Virginia as a 
National Historical Park.
    S. 1325 authorizing a study of the lower Mississippi River 
area in Louisiana for potential designation as a National Park.
    S. 1347 which would designate Coltsville National 
Historical Park in Connecticut.
    S. 1421 authorizing the Peace Corps Commemorative 
Foundation to establish a Memorial in Washington to commemorate 
the mission of the Peace Corps and the ideals on which the 
Peace Corps was founded.
    S. 1478 modifying the boundary of Minuteman Missile 
National Historic Site in South Dakota.
    S. 1537 authorizing the Secretary of the Interior to 
provide technical and financial assistance to the National 
September 11th Memorial and Museum in New York and authorizing 
the Secretary to accept the potential donation of title to the 
Memorial.
    I would like to briefly note that I am an original co-
sponsor of Senator Portman's bill to authorize the Peace Corps 
Commemorative Memorial here in Washington. The more than 
200,000 men and women who volunteered since the creation of the 
Peace Corps in 1961 have made significant contributions in 
improving the lives of countless individuals in communities 
around the world and have not only helped foster better 
understanding of America around the world, but have also 
broadened our understanding of other cultures.
    Colorado has one of the strongest representations of return 
Peace Corps volunteers and I have even more personal 
connection. My mother once served as a Peace Corps volunteer in 
Nepal from the ages of 56-60, so I have a great deal of 
affection and respect for what the Peace Corps stands for and 
represents. So I look forward to working with Senator Portman 
in moving this bill through the committee and the Senate.
    We have been joined by the Dean of the Senate, the Present 
Pro Tem of the Senate, the Chairman of the Appropriations 
Committee, Senator Inouye we appreciate you taking time out of 
your schedule. I would like to recognize you now for your 
statement, I think pertaining to S. 1531 which would authorize 
the Secretary of the Interior to provide technical and 
financial assistance to the 9/11 Memorial. We are glad to have 
you, the floor is yours.

       STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR 
                          FROM HAWAII

    Senator Inouye. Thank you very much, Mr. Chairman for this 
opportunity to testify before your committee.
    On December 7, 1941, I was a 17-year-old boy getting ready 
to go to church. The music I was listening to on the radio 
suddenly stopped and the disc jockey came on screaming that 
Pearl Harbor was being bombed. When I stepped out and saw the 
planes fly overhead, grey with red dots, I knew that the world 
had changed. Nearly 2,400 Americans military and civilians died 
that day. It signaled the beginning of World War II and Pearl 
Harbor became a monument to a day that the world changed 
forever.
    On Tuesday morning, September 11, 2001, I was just walking 
into a hotel getting ready to give a speech. A stranger came up 
to me, grabbed my arm, and dragged me into the bar. I could not 
quite understand drinking early in the morning but he pointed 
to the TV set. On that TV set the second tower was being 
struck. Then all hell broke loose. Nearly 3,000 people lost 
their lives in the terrorist attack on New York City, on the 
Pentagon, and Shanksville. Once again this staggering loss of 
life changed our lives forever.
    This past May at the invitation of the Mayor of the city of 
New York, I visited the September 11 Memorial and Museum at 
this Trade Center Site. It is a solemn structure, a worthy 
tribute to the victims and their families that will help 
educate future generations about the global circumstances that 
led to this tragic attack.
    A few years, few days before the tenth anniversary of the 
September 11 attack, I was privileged to introduce legislation, 
S. 1537, to provide for an authorization of funds to support 
the operations and maintenance of the Memorial and the Museum. 
I did this out of a strong sense of recognition. This was from 
my experiences on December the 7th and later in the service of 
the military, that I believe it is our duty to help perpetuate 
this moment in American history.
    I am also familiar with the logistical, financial and 
emotional difficulty that arises from working to build a 
Memorial because I took part in the establishment of the U.S.S. 
Arizona Memorial in Pearl Harbor. Calls for the Memorial began 
in 1943 in the midst of the war. But it was not until 1949 that 
the Delman of the Territory of Hawaii established the Pacific 
War Memorial Commission and that began the planning. At that 
time, the public sentiment stuck by emotions of the war, 
demanded a monument to honor the nearly 2,400 Sailors, Marines, 
Soldiers and civilians who died at Pearl Harbor. After much 
planning and discussion, the President, Dwight David Eisenhower 
addressed, authorized the construction and this was in 1958.
    I remember the discussions that took place in the 
territorial legislature at the time I was serving there. The 
discussions went on with victims' families, the government of 
the United States, the State of Hawaii, to make this reality.
    It was finally completed in 1961 and paid for with a mix of 
public funds, appropriated by this Congress, and moneys raised 
at private fund raising. Yes, the Congress first appropriated a 
large sum at that time, $150,000. Also Elvis Presley helped us 
raise some money, he had a concert there.
    Finally more than 2 decades after the bombing of Pearl 
Harbor, the Memorial opened to visitors in 1962. Today we 
average more than 1 million visitors each year.
    Today New York City, we have a stunningly new Memorial and 
soon to be open Museum that has been completed through the 
efforts of the elected leadership of New York and New Jersey, 
and is spearheaded by the Mayor of the city of New York and a 
private board there. I believe it is a magnificent achievement 
that deserves our full support.
    This legislation will allow the U.S. through the Secretary 
of the Interior, to take ownership of the Memorial and the 
Museum if it ever deems suitable. We do not dictate and say 
that we take over. After the appropriate approvals are secured 
from the Memorial and Museum Board, which that Board includes 
members of families of those members who died, the Governor of 
New York, the Governor of New Jersey and the Mayor of the city 
of New York. This legislation would authorize appropriations of 
$20 million in fiscal year 2013. The first full fiscal year 
after which the Museum is scheduled to open to the public. All 
funds appropriated must be matched by non-Federal sources with 
the resulting Federal share being about 33 percent or less on 
the overall budget of the Museum and the Memorial.
    In the decades since the terrorist attack on lower 
Manhattan, I think it would be interesting for us to note that 
this Nation has spent over $2 trillion in defense and homeland 
security. So I believe we can find Federal funds for this 
Memorial.
    Mr. Chairman, it is my intention to establish a Federal 
presence that ensures reliable support and funding for this 
September 11 Memorial for generations to come. The details of 
the government's role will continue to be discussed and revised 
as circumstances change and the years pass. But like the 
actions initiated by Admiral Radford, Commander and Chief for 
the Pacific in 1950 when he put the flag of the United States 
over the Memorial in, the Arizona Memorial, the Federal 
Government must establish their role in supporting the mission 
of the national September 11 Memorial and Museum. Because I 
think it is our duty to honor those who died, pay tribute to 
their families, and teach the lessons of September 11th so that 
those born in the world that began after the towers fell, would 
never witness a similar tragedy.
    Mr. Chairman, 50 years after the bombing of Pearl Harbor, a 
national poll was taken among high school seniors in the United 
States and the question was a very simple one. What is the 
significance of December 7, 1941? Less than half of those 
polled could respond. They had no idea what December 7, 1941, 
is. I would be reluctant to take a poll at this time among high 
school seniors, it may be less than a quarter.
    So I am compelled to do all I can to make certain that 
future generations do not forget what happened on September 11, 
2001. So I would also like to submit, if I may with your 
permission, several sets of items for the record.
    Senator Udall. Without objection.
    Senator Inouye. These items include a section by section 
analysis of this bill. A personal statement from Tom Johnson, 
the 9/11 Board Member and father of Scott Johnson. A formal 
statement from the Board of the Memorial and Museum Foundation. 
A letter to the committee from all the family members on the 
board. I ask that this committee support this measure. I thank 
you very much, Sir.
    Senator Udall. We thank you Chairman Inouye for taking your 
time to join us. We know how busy you are. If you would like to 
stay we would welcome your presence, but we also know how much 
work is occurring on the floor. So thank you again.
    Senator Inouye. Thank you for excusing me.
    Senator Udall. Thank you.
    Senator Inouye. Thank you, sir.
    Senator Udall. We will now turn to members of the Energy 
Committee if they have initial remarks and then Senator 
Warner's joined us and we will look forward to hearing his 
testimony as well.
    Senator Johnson.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you Chairman Udall for holding this 
hearing today. I appreciate the opportunity to speak on behalf 
of legislation. I have introduced to modify the boundary of the 
Minuteman Missile National Historic Site in South Dakota.
    Minuteman Missile consists of 2 separate sites located 
about 11 miles from one another in Southwestern South Dakota. 
The Delta 1 Lodge Facility and the Delta 9 Missile Silo, these 
sites were part of the Air Force's Minuteman 2 Missile System 
during the cold war. When Minuteman Missile was signed as 
National Historic Site in 1989, it was the first unit of the 
National Park System dedicated to the history of the cold war.
    By legislation, which is co-sponsored by my colleague, 
Senator Tom Thune, we transfer 2 parcels of land from the U.S. 
Forest Service to the National Park Service. A 25-acre parcel 
would be used to locate a visitor facility an administration 
billing has called for in enabling legislation.
    A second parcel of about 3 acres will be used for a visitor 
parking there at their Missile Silo. The visitor center and 
additional parking will allow the park service to more fully 
interpret the unique and important history of the site and 
enhance their visitor experience.
    I look forward to working with my colleagues on the Energy 
and Natural Resources Committee to move as those legislation 
forward. I think that administrations for its support. Thank 
you, Mr. Chairman.
    Senator Udall. Thank you, Senator Johnson. Senator Landrieu 
is recognized.

       STATEMENT OF HON. MARY L. LANDRIEU, U.S. SENATOR 
                         FROM LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman, I will be brief. 
I know the Senator from Virginia is here to testify for one of 
his bills. But I want to thank you because I do have a tight 
deadline at a little after 3 today.
    I want to thank you for including this bill, Mr. Chairman, 
on your agenda. This is the third Congress that I have 
introduced this bill and I am really hoping that the 3rd time 
will be the charm where we can put this bill in a package of 
other worthy parks and areas and try to get this passed for the 
people of Louisiana. We have been working on this, as I said, 
for quite some time.
    This legislation would simply commence a study for the 
determination of national significance which of course you know 
is the first crucial step of the two-step process to becoming 
designated as a national park. The areas in Plaquemine Parish, 
Louisiana, which you may not be familiar with, it is a large 
parish geographically South of New Orleans. In fact, I was 
thinking if we do get to be a park, we will be the most 
Southern most park I think in the United States except for 
maybe some parts of Key West, Florida. But it is an important 
location as you can imagine on the Gulf Coast and there have 
been ten fortifications in the history of our Nation on this 
site and there still are to sites, Fort St. Philip and Fort 
Jackson. Fort St. Philip dates back to the war of 1812, Fort 
Jackson to the Civil War. They played a great role in the 
protection of the city of New Orleans which of course played a 
great role in the protection of our Nation and our expansion 
westward. I do not need to tell you that this part of our 
country is flown under many different flags, the French, the 
Spanish, we have a lot of Caribbean and African, Native 
American cultures, also the Vietnamese and others have moved in 
recently and it is really a mixing pot.
    In addition, what is significant, Mr. Chairman, is that the 
Parish government feels so strongly about this, they are 
willing to pay for the study which sometimes can be a problem 
in getting, you know, the study conducted. So if you and the 
committee would allow and suggest, we can put up our own 
funding for the study and it should of course be someone that 
the Park Service and we agree would be, you know, fair in their 
assessment. But if that would help to move this forward, we 
actually can put up our own money. So I have submitted the 
legislation both using the Federal source and a non-Federal 
source for the study. I just hope that you will give us, you 
know, every consideration and include us in the next land's 
bill that is presented by the Energy Committee.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Landrieu. I know we all 
have high hopes we can put a package together in this Congress. 
Particularly given there were a number of bills, there were 
tens of bills that did not make it to the finish line in the 
last Congress. Senator Warner, thank you for taking your time 
to come to the National Park Subcommittee. We look forward to 
your testimony, the floor is yours.

        STATEMENT OF HON. MARK R. WARNER, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman, Senator Landrieu, 
Senator Johnson. It is a real honor for me to be here today 
following obviously your comments on both of your worthy 
projects and Senator Inouye's comments. I know you have got a 
lot to cover. I know in a little while my good friend, the 
Secretary of Veterans Affairs and Homeland Security for the 
Commonwealth of Virginia, Secretary Terrie Suit will get a 
chance to make a presentation, a more, a longer presentation. I 
had the good fortune when I was Governor to then Delegate Suit 
served in our assembly and I hope you will pay close attention 
to her comments.
    I am going to be very brief, I know you got a full agenda. 
But I hope the brevity of my comments will not make up for the 
passion I feel about the issue I am going to talk to you about. 
Demonstration of that passion is, you know, today is wear green 
for Fort Monroe day and you will see some of the fellow 
Virginian's here and let me assure you, trying to find a tie 
this vibrantly green other than St. Patrick's Day would be one 
demonstration of my commitment to this issue.
    So, Mr. Chairman I ask that my full statement be included 
in the record.
    Senator Udall. Without objection.
    Senator Warner. So, let me say very brief I am here to 
speak on a bill I have co-sponsored with Senator Webb. The Fort 
Monroe National Historical Park Establishment Act of 2011. This 
legislation would authorize the park service to establish a 
national park presence at the Fort to preserve historic and 
natural resources for all to enjoy. I just want to make 3 quick 
points and fuller description in my full statement.
    First, not unlike the 2 very worthy projects that Senator 
Johnson and Senator Landrieu mentioned, Fort Monroe has a 
unique and important history stretching back over 400 years. I 
am not sure even Senator Landrieu's presence goes back 400 
years. The first fortifications at the site then known as Point 
Comfort were built by a colonist in 1609. In 1619 the first 
Africans to arrive in the New World landed at Old Point 
Comfort. Nearly 250 years later the site where slavery started 
in America helped shape the beginning of its end. During the 
Civil War Fort Monroe, which is for any of you who have ever 
travelled down to Virginia Beach and right before you go 
through the traffic in the tunnel, off to the left there in the 
city of Hampton, good job, is this presence and we hope you 
will come back to, come to Virginia often.
    But Fort Monroe had a strategic role as one of the few 
union military installations in the South that was never 
occupied by confederate forces. When the Fort's Commander, 
General Benjamin Butler, classified slaves who were able to 
reach Union lines as contraband of war, Fort Monroe became a 
site of hope for thousands of enslaved persons seeking freedom. 
General Butler's quote ``contraband of war'' declaration helped 
changed the course of the Civil War in our Nation's history and 
there is an extraordinary story of slaves and slave people who 
literally left building confederate embankments, got into the 
fort and this general who was there kind of making a legal 
opinion on the fly, decided rather than sending these 
individuals back which is, this was still before emancipation 
proclamations. These folks could have, he could have legally 
``legally'' sent them back to incredible hardship and 
potentially death. Decided instead to classify individuals as 
contraband of war and by midway through the war literally 
thousands and thousands of enslaved individuals across the 
region escaped to Fort Monroe.
    Subsequently after the Civil War, Fort Monroe became 
partial place for the imprisonment actually of Jefferson Davis 
and played an important role in World War I and World War II. 
Many, many were the locations vying for national park status, 
but we would put Fort Monroe, at least from Virginia's 
standpoint, at the top of that list. I would add the Governor 
and the Mayor would be here today but they are making this case 
personally, I believe, to the President who is in the city of 
Hampton today.
    Second point I would just like to make is that the city of 
Hampton, the complete Bipartisan Congressional Delegation, our 
Governor and all of the local citizens are united in supporting 
a future National Park Service presence at Fort Monroe. A 
successful partnership at the local, State and Federal levels 
is critically important for future preservation of the site. 
The park service has strong partners in the Commonwealth of 
Virginia and the Fort Monroe Authority. This was recently until 
a few years back a military site that got turned back to the 
State through the last BRAC process, when the 69th Governor of 
Virginia was dealing with the Commonwealth.
    Finally, you want to know who that was? That was, I will 
not mention who that was. Finally the creation of a National 
Park Service Unit at Fort Monroe would support local jobs, 
boost tourism and provide an urban park attractive to local and 
out of State visitors alike. Fort Monroe is a true cultural and 
historical treasure and the fitting home for a new National 
Park Service Unit. I am grateful for the committee for its 
opportunity to express my support for this legislation. I look 
forward to working with you to enact this legislation and to 
create a National Park at Fort Monroe.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Warner follows:]
Prepared Statement of Hon. Mark R. Warner, U.S. Senator From Virginia, 
                               on S. 1303
    I commend Chairman Udall and Senator Paul for holding this hearing, 
and I appreciate the opportunity to offer my strong support for one of 
the bills on the Committee's agenda for today, S. 1303, The Fort Monroe 
National Historical Park Establishment Act of 2011. I am pleased to co-
sponsor this legislation with Senator Jim Webb.
    Fort Monroe is a site of particular historic significance to the 
Commonwealth of Virginia and the nation. The site is in the process of 
being turned over to the Commonwealth of Virginia due to a 2005 BRAC 
recommendation. This legislation would authorize the Park Service to 
establish a national park presence at the Fort to preserve historic and 
natural resources for the benefit of present and future generations. 
The City of Hampton, the region's bipartisan Congressional delegation, 
the Governor of Virginia, and local citizens are united behind this 
approach. The creation of a National Park Service unit at Fort Monroe 
would support local jobs, encourage visitation to the area, and provide 
an urban park attractive to locals and tourists alike.
    Let me take a moment to tell you a bit about this special place. 
This Fort was built in the early 1800s, but, actually, the 
fortifications go back much earlier than that. As early as 1608 Captain 
John Smith recognized the importance of building a fort at Point 
Comfort, as the English colonists called this land. In 1619, the first 
Africans to arrive in the New World landed at Old Point Comfort. From 
its very beginnings, Fort Monroe has been associated with many key 
figures in American history. Robert E. Lee supervised work on the 
fortress as a young U.S. Army lieutenant. Edgar Allan Poe was a soldier 
at Fort Monroe. Abraham Lincoln, during the midst of the Civil War, 
paid a critical visit to the Fort. And Harriet Tubman nursed wounded 
soldiers there in 1865. Jefferson Davis was at Fort Monroe on two very 
different occasions: first, as the U.S. Secretary of War, and later, as 
the former President of the Confederacy, he was imprisoned at Fort 
Monroe for 2 years.
    By World War II, Fort Monroe was the headquarters of our military's 
successful efforts to protect the mid-Atlantic coast. After World War 
II and to the current day it has been home of the Army Command 
responsible for training our warfighters.
    All of these various events alone, I would argue, would warrant the 
designation of Fort Monroe as part of the National Park Service. But 
its true historic significance goes back, actually, to a night in May 
of 1861.
    During the Civil War, Fort Monroe had an important strategic role 
as one of the very few Union military installations located in the 
South that was never occupied by Confederate forces. On May 23, 1861, 
three slaves--Frank Baker, Shepard Mallory, and James Townsend--got 
into a small boat in Hampton, crossed the James River, and presented 
themselves at the front gate of Fort Monroe seeking safety and 
sanctuary. For the previous many weeks, Baker, Mallory, and Townsend 
had been forced by their owners to help construct a Confederate 
artillery post aimed directly at Fort Monroe. Obviously, that was not 
something these individuals wanted to be part of.
    I want you to think a moment about the choices that were being made 
by these three men--these three slaves--Frank Baker, Shepard Mallory, 
and James Townsend. They left behind the community where they had spent 
most, if not all, of their lives. At least two of the three left behind 
wives and children. It was entirely possible that once these three men 
reached Fort Monroe, the Union soldiers would simply turn them around 
and send them back to their owners.
    At that time, it was the official U.S. Government policy, even in 
the so-called Confederate States, after the Civil War had begun in 
April of 1861, to turn slaves back over to their owners. Baker, 
Mallory, and Townsend had to know if they were returned as runaways, 
they could expect the most Draconian of punishments. But they figured 
the choice should be theirs to make, so they made it. They soon found 
themselves standing before the new commander of Fort Monroe, Major 
General Benjamin Franklin Butler.
    Deciding it might be easier to apologize later rather than seek 
permission beforehand, General Butler made a huge and historically 
courageous decision. He classified the three slaves as ``contraband of 
war,'' a policy that was later adopted across the Union to protect any 
slaves who managed to reach Union lines. As a result, Virginia's Fort 
Monroe ultimately became a beacon of hope for thousands of enslaved 
people seeking freedom. In fact, Fort Monroe became known as the 
``Freedom Fortress.''
    The day after General Butler's edict, eight more slaves showed up 
at Fort Monroe. The day after that, 47 more appeared. By the war's end, 
thousands--literally thousands--had appealed for contraband status at 
Fort Monroe. General Butler's declaration of this decision of 
``contraband of war'' helped change the course of the Civil War and our 
Nation's history.
    The rich history of Fort Monroe, and particularly the site's role 
in African American history, is now at the forefront of public 
awareness as our nation commemorates the 150th anniversary of the of 
the Civil War.
    The Fort's preservation by the Park Service will allow visitors to 
study, experience and celebrate this important history firsthand, while 
also providing additional tourism and economic development 
opportunities for the Hampton Roads region of Virginia. In addition to 
its important historical resources, Fort Monroe also has the potential 
to become a great urban park, as the site offers both open natural 
areas and beach access to the Chesapeake Bay. With the conservation of 
this portion of undeveloped Chesapeake Bay shoreline, visitors would be 
able to enjoy recreational opportunities including birding, boating, 
fishing, swimming and hiking along wildlife trails.
    The National Park Service (NPS) has determined that ``resources 
associated with Fort Monroe are nationally significant and likely to be 
found suitable for potential designation as a unit of the national park 
system.'' We appreciated having the assistance of NPS in drafting this 
legislation to reflect a site that not only preserves the site's 
history and provides public recreational resources, but that also best 
aligns with the ability of NPS to manage the site.
    The Park Service has strong partners in the Commonwealth of 
Virginia and the Fort Monroe Authority, whose objective is to oversee 
the preservation, conservation, protection, and maintenance of the 
Commonwealth of Virginia's property interests at Fort Monroe. The 
Commonwealth has made clear its intent to protect the historic 
resources at Fort Monroe while also providing public access to the 
Fort's historic resources and recreational opportunities. Governor 
McDonnell has written Secretary Salazar voicing his strong support for 
a NPS unit at Fort Monroe, and the Virginia General Assembly has 
authorized the conveyance by donation of lands to NPS to support the 
creation of a NPS unit at the site. A successful partnership at the 
local, state and federal levels is critically important to the future 
preservation of the site.
    Finally, it is important to note the outpouring of local support 
for the creation of a National Park Service unit at Fort Monroe. The 
public meetings that NPS held in Hampton over the summer, along with 
the thousands of comments NPS received, demonstrate the overwhelming 
public support that exists for a future NPS presence at this site. I 
hope the Committee will take into account the strong community support 
as well as the bipartisan support that exists at all levels.
    Fort Monroe is a true cultural and historical treasure, and the 
fitting home for a new National Park Service unit. I am grateful to the 
Committee for this opportunity to express my support for this 
legislation. I look forward to working with each of you to enact this 
legislation to create a national park at Fort Monroe.

    Senator Udall. Thank you, Senator Warner. I want to see if 
any of my colleagues have any comments or questions of Senator 
Warner.
    Senator Landrieu. No, but I would love to be helpful.
    Thank you, Senator Warner. Thank you for sharing the 
history of this wonderful asset and we look forward to working 
with you.
    Senator Warner. Thank you, Mr. Chairman.
    Senator Udall. As Senator Warner leaves, I know we have two 
individuals who are going to be on the next panel. Please if 
you would come forward, we look forward to your testimony and 
we will let you get settled and we will recognize you in a 
minute.
    [Pause.]
    Senator Udall. While you are taking your seats, I have some 
statements for the record. The subcommittee has received 
several written statements relating to bills on today's agenda. 
Including ones from Senator Lieberman on S. 1347, his bill to 
designate the Coltsville National Historical Park. Senator Webb 
on S. 1303, his bill to designate the Fort Monroe National 
Historical Park. Kevin Quigley, the Chairman of the Board of 
Trustees of the Peace Corps Commemorative Foundation on S. 
1421. Mayor Molly Ward of Hampton, Virginia on S. 1303, the 
Fort Monroe bill along with letters from the National Park's 
Conservation Association and the Chesapeake Conservancy. 
Several letters from family members of September 11th victims 
on S. 1537, the September 11th Memorial bill. These statements 
along with any others the subcommittee receives will be 
included in the official hearing record.
    We have been joined by Mr. William Shaddox who is the 
acting Associate Director for Park Planning Facilities and 
Lands, the National Park Service, Department of Interior. By 
the Honorable Terrie Suit, Secretary of Veterans Affairs and 
Homeland Security, the Commonwealth of Virginia. We are excited 
to hear your testimony.
    Mr. Shaddox, why don't we start with you and you have 
appeared, I believe, in the past. You have approximately 5 
minutes to run through this important list of bills. The floor 
is yours. Actually, I should say, if you need a little longer 
please take it, because this is an important list of bills to 
be considered.

STATEMENT OF WILLIAM D. SHADDOX, ACTING ASSOCIATE DIRECTOR FOR 
 PARK PLANNING, FACILITIES, AND LANDS, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Shaddox. Thank you, Mr. Chairman, I appreciate that. 
Mr. Chairman, thank you for this opportunity to appear before 
this distinguished committee to present the Department of the 
Interior's views on 9 bills.
    I would like to submit our full statements on each of these 
subjects for the record and summarize the Department's position 
on these bills.
    Senator Udall. Without objection.
    Mr. Shaddox. Thank you very much. S. 544 would authorize 
the Secretary of the Interior to conduct a study of 
alternatives for commemorating and interpreting the role of the 
Buffalo Soldiers in the early years of the National Parks. This 
study would help determine the most effective way to increase 
understanding and public awareness of the critical role that 
these segregated units composed of African American Cavalrymen 
played in protecting National Parks. The Department supports 
this legislation.
    S. 1083 would authorize the study of the Smoky Hill Trail 
for potential addition to the National Trail System. This was 
an overland trail across the Great Plains during pioneer days, 
extending approximately 600 miles from Atchison and 
Leavenworth, Kansas to Denver, Colorado. The Department 
supports S. 1083 if the bill is amended to delete sections 3 
and 4. These sections add requirements for the study that are 
unnecessary and unworkable.
    S. 1084 would authorize a study of the Shawnee Cattle Trail 
for potential addition to the National Trail System. This trail 
is the oldest of the major Texas Cattle trails extending from 
near Austin, Texas to Baxter Springs, Kansas. The Department 
supports S. 1084 if the bill is amended to, again, to delete 
sections 3 and 4. These sections add requirements for the study 
that are unnecessary or unworkable.
    S. 1303 would establish Fort Monroe National Historical 
Park in Hampton, Virginia as a unit of the National Park 
System. The Department supports enactment of this legislation 
with some technical amendments. Fort Monroe has served as one 
of the country's major military posts from the time of its 
establishment since its construction in the early 1800s, and 
the site itself has an older history. It was an active Army 
base until its deactivation this year. The State authority that 
was established to recommend the base's reuse plan recommended, 
in 2009, having key historic parts of the Fort established as a 
National Park. The State has taken several actions since then 
toward that end and we have determined that a National Park 
Service presence at Fort Monroe would be appropriate under 
certain conditions including the donation of property interest 
by the State, the institution of other protective mechanisms 
within the boundary of the park, and the provision of 
maintenance, utilities and other services for NPS assets by the 
State authority.
    S. 1325 would authorize a special resource study for the 
lower Mississippi River area, in Plaquemines Parish, Louisiana. 
The study would be centered on Fort Jackson and Fort St. 
Philip, which are both National Historic Landmarks. The 
Department supports this legislation with several amendments 
which are described in our written testimony.
    S. 1347 would authorize the Secretary of the Interior to 
establish Coltsville National Historical Park in Hartford, 
Connecticut after certain conditions are met. This park unit 
would preserve and interpret the important contributions to 
manufacturing technology by Samuel Colt and the industrial 
enterprise he founded in 1855. The Department supports 
enactment of this legislation. Under S. 1347, the park unit 
could not be established until the Secretary is satisfied that 
adequate public access to the site and its financial viability 
are assured. The authority to review the financial resources of 
public and private property owners associated with this project 
is unprecedented in similar park establishment legislation. We 
believe that these conditions will assure the park is 
established only when the development is moving forward, and 
the public will have the ability to learn about the 
manufacturing process that took place at this site.
    S. 1421 would authorize the Peace Corps commemorative 
Foundation to establish a Commemorative work in the District of 
Columbia. The Department supports this legislation. We note 
that S. 1421 reflects suggestions that were made to strengthen 
the legislation in the Department's testimony on last 
Congress's version of the bill in the House and that were also 
made by the National Capital Memorial Advisory Commission.
    S. 1478 would modify the boundary of the Minuteman Missile 
National Historic Site in Philip, South Dakota. The bill would 
transfer 2 parcels of land in the Buffalo Gap National 
Grasslands from the U.S. Forest Service to the National Park 
Service for use at Minuteman Missile National Historic Site. A 
25-acre parcel would be used to establish a visitor facility 
and administrative site, and another 3.65-acre parcel would be 
used for the construction and use of a parking lot and other 
administrative uses. The Department supports this bill.
    S. 1537 would authorize the Secretary of the Interior to 
accept the title to the National September 11th Memorial and 
Museum at the World Trade Center in New York City. It would 
authorize annual appropriations of $20 million for the 
memorial. The Department appreciates the enormous significance 
of the events of September 11, 2001, and supports memorializing 
and providing educational opportunities to learn about that day 
and its effects on our country and on the world. However, we 
would like to continue to work with the committee and Senator 
Inouye to address issues in order to clarify the role of the 
National Park Service, the appropriate funding mechanisms and 
the source of those funds.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions that you or others may have.
    [The prepared statements of Mr. Shaddox follow:]
Prepared Statement of William D. Shaddox, Acting Associate Director for 
Park Planning, Facilities, and Lands, National Park Service, Department 
                            of the Interior
                                 s. 544
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 544, to authorize the Secretary of the Interior 
to conduct a study of alternatives for commemorating and interpreting 
the role of the Buffalo Soldiers in the early years of the national 
parks, and for other purposes.
    The Department supports S. 544. However, we feel that priority 
should be given to the 37 previously authorized studies for potential 
units of the National Park System, potential new National Heritage 
Areas, and potential additions to the National Trails System and 
National Wild and Scenic River System that have not yet been 
transmitted to Congress.
    S. 544 would authorize a study to determine the most effective ways 
to increase understanding and public awareness of the critical role 
that the Buffalo Soldiers, segregated units composed of African-
American cavalrymen, played in the early years of the National Parks. 
It would evaluate the suitability and feasibility of a National 
Historic Trail along the routes between their post at the Presidio of 
San Francisco and the parks they protected, notably Yosemite and 
Sequoia. The study would also identify properties that could meet the 
criteria for listing in the National Register of Historic Places or 
designation as National Historic Landmarks. We estimate that this study 
will cost approximately $400,000.
    African-American 19th and 20th century Buffalo Soldiers were an 
important, yet little known, part of the history of some of our first 
National Parks. These cavalry troops rode more than 320 miles from 
their post at the Presidio to Sequoia and Yosemite National Parks in 
order to patrol and protect them. The journey across the state took 
sixteen days of serious horseback riding averaging over twenty miles a 
day. Once in the parks, they were assigned to patrol the backcountry, 
build roads and trails, put a halt to poaching, suppress fires, halt 
trespass grazing by large herds of unregulated cattle and sheep, and 
otherwise establish roles later assumed by National Park rangers.
    The U.S. Army administered Sequoia and Yosemite National Parks from 
1891 to 1914, when it was replaced by civilian management. The National 
Park Service was not created until 1916, 25 years after these parks 
were established. Commanding officers became acting military 
superintendents for these national parks with two troops of 
approximately 60 cavalry men assigned to each. The troops essentially 
created a roving economy--infusing money into parks and local 
businesses--and thus their presence was generally welcomed. The 
presence of these soldiers as official stewards of park lands prior to 
the National Park Service's establishment brought a sense of law and 
order to the mountain wilderness.
    Less well known, however, is the participation of African-American 
troops of the 24th Infantry and 9th Cavalry, the Buffalo Soldiers, who 
protected both Sequoia and Yosemite National Parks in 1899, 1903, and 
1904. These troops and their contributions should be recognized and 
honored, and this bill does just that.
    When the new military superintendent for the summer of 1903 arrived 
in Sequoia National Park he had already faced many challenges. Born in 
Kentucky during the Civil War, Charles Young had already set himself a 
course that took him to places where a black man was not often welcome. 
He was the first black to graduate from the white high school in 
Ripley, Ohio, and through competitive examination he won an appointment 
to the U.S. Military Academy at West Point in 1884. He went on to 
graduate with his commission, only the third black man to do so.
    In 1903, Young was serving as a captain in the cavalry commanding a 
segregated black company at the Presidio of San Francisco when he 
received orders to take his troops to Sequoia National Park for the 
summer. Young and his troopers arrived in Sequoia after a 16-day ride 
to find that one of their major assignments would be the extension of 
the wagon road. Hoping to break the sluggish pattern of previous 
military administrations, Young poured his considerable energies into 
the project. During the summer of 1903, Young and his troops built as 
much road as the combined results of the three previous summers, as 
well as building a trail to the top of Mt. Whitney--the highest point 
in the contiguous United States.
    The soldiers also protected the giant sequoias from illegal 
logging, wildlife from poaching, and the watershed and wilderness from 
unauthorized grazing by livestock. A difficult task under any 
circumstances, the intensity was undoubtedly compounded by societal 
prejudice common at the turn of the century.
    Although Colonel Charles Young only served one season as Acting 
Superintendent of a National Park, he and his men have not been 
forgotten. The energy and dignity they brought to this national park 
assignment left a strong imprint. The roads they built are still in use 
today, having served millions of park visitors for more than eighty 
years. The legacy they left extends far beyond Sequoia National Park, 
as they helped lay the foundation for the National Park System, which 
continues to inspire and connect people of all backgrounds to public 
lands and natural treasures to this day.
    In recent years the National Park Service has made an effort to 
chronicle the achievements of these men in San Francisco and in Sequoia 
and Yosemite National Parks. In the Presidio of San Francisco, Golden 
Gate National Recreation Area and the Presidio Trust have developed an 
education program using the historic stables that the Buffalo Soldiers 
actually used to house their horses. In Yosemite National Park, Ranger 
Shelton Johnson portrays one of the U.S. Army's Buffalo Soldiers as 
part of his interpretation of Yosemite's history. Sequoia National Park 
has a giant sequoia named for Colonel Young in honor of his lasting 
legacy in that park. These isolated, but important efforts to educate 
the public on the important role of the Buffalo Soldiers could be 
heightened by this consolidated study.
    There is a growing concern that youth are becoming increasingly 
disconnected with wild places and our national heritage. Additionally, 
many people of color are not necessarily aware of national parks and 
the role their ancestors may have played in shaping the national park 
system. NPS can help foster a stronger sense of awareness and knowledge 
about the natural and cultural history preserved in our natural parks 
by connecting people, especially these audiences, to the critical roles 
of African-American Buffalo Soldiers in the protection and development 
of natural treasures like Sequoia and Yosemite National Parks. By 
amplifying the story of the Buffalo Soldiers, this bill could help 
bridge cultural divides and expand opportunities to appeal to an all-
inclusive audience. As the 2016 centennial of the National Park Service 
approaches, it is an especially appropriate time to conduct research 
and increase public awareness of the stewardship role the Buffalo 
Soldiers played in the early years of the National Parks.
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions that you or other members if the subcommittee may 
have.
                                s. 1083
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1083, to amend the National Trails System Act to 
designate the route of the Smoky Hill Trail, an overland trail across 
the Great Plains during pioneer days in Kansas and Colorado, for study 
for potential addition to the National Trails System.
    The Department supports S. 1083, if amended in accordance with this 
statement. However, we feel that priority should be given to the 37 
previously authorized studies for potential units of the National Park 
System, potential new National Heritage Areas, and potential additions 
to the National Trails System and National Wild and Scenic Rivers 
System that have not yet been transmitted to the Congress.
    S. 1083 would authorize the Secretary of the Interior to conduct a 
study of the route of the Smoky Hill Trail for consideration for 
inclusion in the National Trails System. The bill includes a 
prohibition on considering alternatives that might adversely affect 
private property rights. It also requires notification of private 
property owners of land that would be studied for the potential trail 
prior to the start of the study. The usual cost of this type of study 
is approximately $200,000 to $350,000.
    If the study results in the recommendation to designate a new 
National Historic Trail, and if Congress enacts that designation, the 
trail would join the network of scenic and historic trails that has 
been created since the enactment of the National Trails System Act in 
1968. These trails provide for outdoor recreational needs and the 
enjoyment and appreciation of historic resources which, in turn, 
promotes good health and well-being. They connect us to history and 
provide an important opportunity for local communities to become 
involved in a national effort by encouraging public access and citizen 
involvement.
    The Smoky Hill Trail extended approximately 600 miles from Atchison 
and Leavenworth, Kansas, to Denver, Colorado, running parallel to the 
Smoky Hill River. After gold was discovered near Denver in 1859, 
thousands of gold diggers used the route to the Rocky Mountains. 
Homesteaders and soldiers also traveled the trail and, for five years, 
commercial stage coach companies maintained lines on the Smoky Hill 
Trail. Fort Downer, Fort Harker, Fort Monument, Fort Wallace and other 
stops provided protection and supplies for travelers.
    The arrival of the Kansas-Pacific Railroad in Denver in 1870 
signalled the end of the Smoky Hill Trail for long-distance travel.
    In 1994, the National Park Service completed a study entitled 
``Special Report on Eight Kansas Forts.'' Five of the forts were 
located along the Smoky Hill Trail. The study recommended that further 
research for interpretation, resource protection, and management be 
carried out on the trails and connections between the forts.
    The Department's support for S. 1083 is contingent upon the 
deletion of sections 3 and 4. Section 3(a) specifies that certain 
requirements may not be contained in any alternatives considered under 
the study. This language is unnecessary as trail studies do not include 
alternatives that affect private property rights in the manner 
described in this subsection. Section 3(b) requires the study to 
include an analysis and documentation regarding whether each 
alternative proposed has potential or actual impact on private property 
within or abutting the trail area. This language is unnecessary because 
any potential impacts are covered through the National Environmental 
Policy Act (NEPA) process, to which trail studies are subject.
    Section 4 would require notification prior to conducting the study 
of all private property owners whose land would be studied. Trail 
studies, which are conducted by the National Park Service with local 
partners, are publicized within the affected communities. Study teams 
work hard to involve all interested parties in trail studies, and try 
to contact all affected property owners through the course of a study. 
However, it would be almost impossible to locate and contact the owner 
of every piece of property along approximately 600 miles of potential 
trail routes, and making the effort to do so would substantially 
increase the cost of the study and the time it would take to complete 
the study.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee might have.
                                s. 1084
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1084, to amend the National Trails System Act to 
designate the routes of the Shawnee Cattle Trail, the oldest of the 
major Texas Cattle Trails, for study for potential addition to the 
National Trails System, and for other purposes.
    The Department supports S. 1084, if the bill is amended in 
accordance with this statement. However, we feel that priority should 
be given to the 37 previously authorized studies for potential units of 
the National Park System, potential new National Heritage Areas, and 
potential additions to the National Trails System and National Wild and 
Scenic Rivers System that have not yet been transmitted to the 
Congress.
    S. 1084 would authorize the Secretary of the Interior to conduct a 
study of the routes of the Shawnee Trail for consideration for 
inclusion in the National Trails System. This bill includes a 
prohibition on considering alternatives that might adversely affect 
private property rights. It also requires notification of private 
property owners of land that would be studied for the potential trail 
prior to the start of the study. The usual cost of this type of study 
is approximately $200,000 to $350,000.
    If the study results in the recommendation to designate a new 
National Historic Trail, and if Congress enacts that designation, the 
trail would join the network of scenic and historic trails that has 
been created since the enactment of the National Trails System Act in 
1968. These trails provide for outdoor recreational needs and the 
enjoyment and appreciation of historic resources, which in turn, 
promote good health and well-being. They connect us to history and 
provide an important opportunity for local communities to become 
involved in a national effort by encouraging public access and citizen 
involvement.
    The Shawnee Trail extended from near Austin, Texas, to Baxter 
Springs, Kansas. It was first developed by the Osage Indians of 
Oklahoma in the early 1800s. Known as the Osage Trace, the trail became 
the principal highway linking the young colony at Austin to the 
Midwest. As settlers used the trail to immigrate to Texas, the trail 
became known as the Texas Road. By 1854, the trail was an important 
cattle route, and cattle drivers called it the Kansas Trail and the 
East Shawnee Trail. Over 50,000 head of cattle were driven to the 
Burlington railhead at St. Joseph, Missouri, by way of the Shawnee 
Trail in 1859.
    Over time, however, the Shawnee Trail was considered to be 
undesirable, due to heavily forested territory along the trail route 
and the presence of bandits. As the railroads expanded to the West, 
cattle drivers used the Chisolm and Western Trails, which lie west of 
the Shawnee Trail.
    In 1975, the Bureau of Outdoor Recreation completed a study 
entitled ``Old Cattle Trails of the Southwest, a National Scenic Trail 
Study.'' In that study, several trails were examined, including the 
Shawnee Trail. The study determined that the trail did not meet the 
criteria for establishment as a National Scenic Trail. However, the 
study was conducted before the category of ``National Historic Trails'' 
existed. The Department believes that it would be appropriate to 
reassess the trail for its potential as a National Historic Trail.
    The Department's support for S. 1084 is contingent upon the 
deletion of sections 3 and 4. Section 3(a) specifies that certain 
requirements may not be contained in any alternatives considered under 
the study. This language is unnecessary as trail studies do not include 
alternatives that would affect private property rights in the manner 
described in this subsection. Section 3(b) requires the study to 
include an analysis and documentation regarding whether each 
alternative proposed has potential or actual impact on private property 
within or abutting the trail area. This language is unnecessary because 
any potential impacts are covered through the National Environmental 
Policy Act (NEPA) process, to which trail studies are subject.
    Section 4 would require notification prior to conducting the study 
of all private property owners whose land would be studied. Trail 
studies, which are conducted by the National Park Service with local 
partners, are publicized within the affected communities. Study teams 
work hard to involve all interested parties in trail studies, and to 
contact all affected property owners through the course of a study. 
However, it would be almost impossible to locate and contact the owner 
of every piece of property along hundreds of miles of potential trail 
routes, and making the effort to do so would substantially increase the 
cost of the study and the time it would take to complete the study.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee might have.
                                s. 1303
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1303, the Fort Monroe National Historical Park Establishment Act of 
2011.
    The Department supports enactment of S. 1303 with some technical 
amendments.
    S. 1303 would establish Fort Monroe National Historical Park as a 
unit of the National Park System. The legislation authorizes the 
Secretary of the Interior (Secretary) to enter into cooperative 
agreements with the Commonwealth of Virginia (Commonwealth) or any 
other party under which the Secretary may identify, interpret, and 
provide assistance for the preservation of non-federal properties 
within the boundary of the park or in the historic area, including the 
operation of a joint visitor center. It authorizes the Secretary to 
provide technical assistance and public interpretation of resources 
within the historic area and at any sites in close proximity to the 
park that are related to events or persons associated with the fort. 
Additionally, the Secretary may coordinate interpretation between the 
park and the Captain John Smith Chesapeake National Historic Trail. 
Long-term protection and public interpretation of the Old Point Comfort 
Lighthouse would be provided for through an interagency agreement 
between the Secretary and the Secretary of Homeland Security.
    Fort Monroe is located in Hampton, Virginia, where the James River 
meets the Chesapeake Bay, in close proximity to Yorktown, Jamestown, 
and Williamsburg. Constructed between 1819 and 1834, Fort Monroe has 
served as one of the country's major military posts from the time of 
its establishment. However, the peninsula's strategic location was 
recognized much earlier in 1608, by Captain John Smith. Later, the site 
was the first landing point for enslaved captives arriving from Africa 
to the English Colony. After the burning of Washington during the War 
of 1812, the need for improved fortifications led to the construction 
of Fortress Monroe. During the Civil War, the fort was a staging area 
for Union land and naval expeditions and the site of the ``Contraband 
Decision'' when three escaped enslaved men were not returned to their 
Confederate commander. From May 1865 to May 1867, the fort was the site 
for the imprisonment of Confederate President Jefferson Davis. The fort 
remained an active Army base until its deactivation in 2011 as a result 
of the 2005 Base Realignment and Closure Commission findings. The deed 
to several parcels at Fort Monroe has a reverter clause that states, if 
the land is no longer needed for military purposes, it reverts to the 
Commonwealth of Virginia.
    In December 1960, the Secretary of the Interior (Secretary) 
designated Fort Monroe as a National Historic Landmark. At the request 
of former Representative Thelma Drake, the NPS conducted a 
reconnaissance level study of the fort. The 2008 study concluded that 
the fort, while hosting resources of national significance, would not 
be feasible to administer in its entirety because of extensive costs. 
The need for NPS management could not be determined until a reuse plan 
had been completed and further decisions were made about which agency 
would administer the reuse plan in the future.
    The Fort Monroe Federal Area Development Authority (FMFADA) was 
established as a political subdivision of the Commonwealth to serve as 
the official redevelopment authority recognized by the DOD in order to 
study, plan, and recommend the best use of the resources that would 
remain when the base was deactivated. The reuse plan identified as a 
key to consideration of a national park, was completed after the 2008 
NPS reconnaissance study. In November 2009, the FMFADA voted to support 
having parts of the fort established as a unit of the national park 
system including the historic fort structure, the moat, some historic 
structures within the fort and two outlying batteries. The Fort Monroe 
Authority (FMA) was established to administer the reuse plan. The FMA 
entered into a programmatic agreement for future treatment of historic 
resources and development of design standards for the properties within 
the NHL.
    In 2010, members of the Virginia congressional delegation requested 
that the NPS conduct a site visit as a follow-up to the 2008 
reconnaissance study. A NPS team conducted a week-long site visit to 
Fort Monroe in July of 2010. The team conducted stakeholder meetings 
and gathered information on fort resources. With the reuse plan and 
programmatic agreement in place and Commonwealth legislation providing 
adequate management authority to administer the properties, the issues 
raised in the 2008 reconnaissance study are resolved. The 2010 site 
visit determined that a NPS presence at Fort Monroe would be 
appropriate under certain conditions including the donation of property 
interests by the State, the institution of other protective mechanisms 
within the boundary of the park, and the provision of maintenance, 
utilities, and other services for NPS park assets by the FMA.
    The National Trust for Historic Preservation, local elected 
leaders, and many others have expressed support for establishment of a 
park. Preliminary estimates identified initial capital investment costs 
of $5 million and initial start up operational costs of $700,000 to 
$800,000. Additional costs for managing the beach and other operations 
will eventually require an annual operating budget of $1.6 million. If 
the park were established, a comprehensive planning process would 
assess the actual visitor services and staffing needs, further defining 
the park's operational budget.
    The Department appreciates the opportunity to testify on this bill. 
I will be glad to answer any questions.
                                s. 1325
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1325, a bill to direct the 
Secretary of the Interior to study the suitability and feasibility of 
designating sites in the Lower Mississippi River Area in the State of 
Louisiana as a unit of the National Park System, and for other 
purposes.
    The Department supports this legislation with amendments that are 
described later in this statement. However, we feel that priority 
should be given to the 37 previously authorized studies for potential 
units of the National Park System, potential new National Heritage 
Areas, and potential additions to the National Trails System and 
National Wild and Scenic Rivers System that have not yet been 
transmitted to Congress.
    S. 1325 would authorize a study of natural, cultural, historical, 
and recreational resources in Plaquemines Parish, located south of the 
City of New Orleans, for potential designation as a unit of the 
National Park System. The study area would include Fort St. Philip and 
Fort Jackson, located on opposite sides of a bend in the Mississippi 
River about eight miles upstream from the town of Venice, Louisiana, 
and approximately 73 river miles downstream from New Orleans at an 
ancient ``Head of Passes'' site. The term ``Head of Passes'' refers to 
the site where the main stem of the Mississippi River branches off to 
the east, the south, and the southwest at its mouth in the Gulf of 
Mexico. The present day Head of Passes is just south of the town of 
Venice. The study is estimated to cost between $200,000 and $400,000.
    Fort St. Philip was originally built in 1749, and the construction 
of Fort Jackson, named for Andrew Jackson, the hero of the Battle of 
New Orleans in 1815, began in 1822. Fort St. Philip played an important 
defensive role in the Battle of New Orleans and both forts were 
employed unsuccessfully to defend New Orleans and the Confederacy from 
Admiral Farragut's union fleet during the Civil War. Both Fort St. 
Philip and Fort Jackson have been designated as National Historic 
Landmarks, which attests to their national significance. Fort St. 
Philip, privately owned at the present time, is in ruins and overgrown 
with vegetation. Fort Jackson was operated by Plaquemines Parish as a 
historical museum until Hurricane Katrina caused extensive damage, and 
it has been closed to the public ever since.
    While the Department supports S. 1325, we would like to recommend 
some amendments to the bill. We would be pleased to work with the 
committee and the bill's sponsor to develop language for these 
amendments.
    First, we recommend tightening the definition of the study area in 
section 3(1). While it appears that the focus of the study is on the 
two historic forts and related resources, the bill defines the study 
area as the ``Lower Mississippi River area in the State of Louisiana,'' 
which could be interpreted as a much broader area than what is 
intended. The scope of the study would be clarified by limiting the 
study area to the two forts and related and supporting resources in 
Plaquemines Parish.
    Second, we recommend providing a three-year period for completing 
the study, rather than 18 months, as provided for in section 4(a). This 
change would provide for the full three years that a special resource 
study usually requires, and it would make the bill consistent with most 
of the other special resource study bills Congress has enacted in 
recent years.
    Third, we are concerned about the reference in section 4(a) to 
``non-Federal sources'' of funds made available to carry out the study, 
which suggests that the study could be privately funded. We would like 
to carefully consider the issues that might arise from conducting a 
privately funded special resource study and, if we determine that any 
changes to the legislation are necessary, make the appropriate 
recommendation.
    Finally, we recommend removing language in section 4(a)(1)(B) that 
suggests a specific designation for the area, the ``Lower Mississippi 
River National Park,'' before the study is conducted. A special 
resource study that finds that an area meets the criteria for 
designation as a unit of the National Park System would also, as part 
of those findings, identify the most appropriate type of designation 
for the area. A study might also find that options other than 
designation of a new park unit might be more suitable or feasible.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you may have.
                                s. 1347
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior regarding S. 1347, a bill to establish 
Coltsville National Historical Park in Hartford, Connecticut, and for 
other purposes.
    The Department supports enactment of S. 1347.
    S. 1347 would authorize the establishment of a new unit of the 
National Park System at Coltsville in Hartford, Connecticut. The bill 
would provide for several conditions to be met before the Secretary may 
establish the park:

          1. Donations of land or interests in land within the boundary 
        of the park have been accepted;
          2. A written agreement donating at least 10,000 square feet 
        of space in the East Armory;
          3. A written agreement ensuring future uses of land within 
        the historic district are compatible with the park; and
          4. Financial resources of the owners of private and public 
        property within the boundary park are reviewed to ensure 
        viability.

    The legislation also authorizes agreements with other organizations 
for access to Colt-related artifacts to be displayed at the park and 
cooperative agreements with owners of properties within the historic 
district for interpretation, restoration, rehabilitation and technical 
assistance for preservation. It provides that any federal financial 
assistance would be matched on a one-to-one basis by non-federal funds.
    S. 1347 also provides for the establishment of a commission to 
advise the Secretary on the development and implementation of a general 
management plan for the unit. The advisory commission would terminate 
ten years after the date of enactment of the legislation unless 
extended for another ten years by the Secretary of the Interior 
(Secretary).
    The Secretary designated Coltsville Historic District a National 
Historic Landmark on July 22, 2008. The manufacturing complex and 
associated resources constitute the site of nationally important 
contributions to manufacturing technology by Samuel Colt and the 
industrial enterprise he founded in 1855--Colt's Patent Firearms 
Manufacturing Company. It includes, among other resources, the armories 
where firearms and other products were made, the home of Samuel and 
Elizabeth Colt, Colt Park, and housing used by factory workers.
    Samuel Colt is most renowned for developing a revolver design which 
revolutionized personal firearms. The Colt Peacemaker, a six-shot 
revolver, became known as ``the gun that won the West.'' Colt was a 
major innovator in the ``American System'' of precision manufacturing, 
replacing the practice of individually crafting each component of a 
product with the use of interchangeable parts. After his death in 1862, 
his wife Elizabeth owned and directed the manufacturing complex for 39 
years, becoming a major entrepreneur in an age when women rarely 
occupied positions of importance in manufacturing.
    During both World War I and World War II, the Colt Firearms Company 
was one of the nation's leading small arms producers and made vital 
contributions to U.S. war efforts. The company applied its 
interchangeable-parts techniques to a wide variety of consumer products 
and the Colt complex became an ``incubator'' facility for other 
inventors and entrepreneurs. Coltsville is also noteworthy as a fully 
integrated industrial community that includes manufacturing facilities, 
employee housing, community buildings, and landscape features that were 
built largely under the personal direction of Samuel and Elizabeth 
Colt. Colt, whose labor practices were advanced for their time, 
attracted highly skilled laborers to his manufacturing enterprise.
    Pursuant to Public Law 108-94, the Coltsville Study Act of 2003, 
the National Park Service (NPS) conducted a special resource study of 
the resources associated with the Coltsville Historic District. Based 
on Coltsville's National Historic Landmark designation in 2008, the 
study concluded that Coltsville meets the national significance 
criterion. An analysis of comparability to other units of the national 
park system and resources protected by others demonstrated that 
Coltsville is suitable for designation as a unit of the national park 
system. The study was unable, however, to conclude that Coltsville was 
feasible to administer at that time due to the lengthy duration of 
financial issues surrounding the site. In concert with the lack of 
feasibility, the study was also unable to determine the need for NPS 
management, or specifically what the NPS would manage.
    S. 1347 addresses concerns the Department expressed concerning 
financial issues and questions involving ownership and financing of the 
Coltsville properties. The special resource study did not conclude that 
the site absolutely failed to meet feasibility criteria or require NPS 
management, but rather that that it did not meet feasibility criterion 
with the circumstances present at the time of the study and that it was 
impossible to determine, at that time, the need for NPS management of 
the site. In both cases, the uncertainty of public access and financial 
viability of the financial developer of the privately owned portion of 
the site were at issue.
    Since the time of the study, much progress has occurred at 
Coltsville that holds significant promise for the future of the site 
and preservation of the resources. During a recent visit to the 
Coltsville property, the Secretary noted the progress made in the area 
since the study was completed, while stating that, ``Coltsville again 
promises to be an economic engine, producing jobs and spurring growth 
in the Hartford area.'' Significant re-development has already begun. 
Several of the buildings have been rehabilitated and are occupied as 
educational facilities, residential housing, and businesses. 
Negotiations are underway between the developer and the city on an 
agreement for the East Armory building, which would serve as the focal 
point for park visitors. We have been advised the plan has designated 
benchmarks for the project as well as projected funding for the 
development.
    Under S. 1347, the park unit could not be established until the 
Secretary is satisfied that adequate public access to the site and its 
financial viability are assured. The authority to review the financial 
resources of public and private property owners associated with the 
project is unprecedented in similar park establishment legislation. We 
believe that these conditions will assure the park is established only 
when the development is moving forward and the public will have the 
ability to learn about the manufacturing process that took place at the 
site. A 2008 Visitor Experience Study developed a range of visitor 
service alternatives identifying potential operating costs for a very 
minimal operation estimated at $720,000 to a more robust operation of 
$9.3 million. If a park were established, a comprehensive planning 
process would assess the actual needs for visitor services and 
staffing, further defining the park's operational budget. In addition, 
there could be significant Federal costs in providing financial 
assistance to restore or rehabilitate the properties, as authorized in 
Section 4(c)(1). All funding would be subject to NPS priorities and the 
availability of appropriations.
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions that you or other members of the subcommittee may 
have.
                                s. 1421
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1421, a bill to authorize the Peace Corps Commemorative Foundation to 
establish a commemorative work in the District of Columbia and 
environs, and for other purposes.
    The Department supports S. 1421, which would authorize a memorial 
commemorating the formation of the Peace Corps and the ideals of world 
peace and friendship upon which the Peace Corps was founded. This 
proposal provides that no federal funds be used for establishing the 
memorial.
    Although this proposal does not seek any exceptions to the 
Commemorative Works Act (CWA), it should be noted that this proposal to 
honor the ideals upon which the Peace Corps was founded does not fit 
the typical mold for commemoration. The concept of establishing a 
memorial to ``ideals'' is not explicitly described in the CWA. When 
testifying on H.R.4195, a similar bill introduced in the 111th 
Congress, we identified our concerns that a bill such as that could set 
an unwelcome precedent for any and all future concepts identified only 
as ``ideals,'' resulting in an untenable influx of memorial proposals. 
However, there is precedent for such commemoration: specifically, the 
National Peace Garden, which Congress authorized in 1987, and the 
Memorial to Japanese American Patriotism in World War II, which was 
authorized in 1992.
    Our support for this proposal is based upon our understanding that 
this memorial will recognize the establishment of the Peace Corps and 
the significance of the ideals it exemplifies, not the organization's 
members. The CWA precludes a memorial to members of the Peace Corps as 
the commemoration of groups may not be authorized until after the 25th 
anniversary of the death of the last surviving member of a group.
    The Department notes that S. 1421 reflects suggestions made to 
strengthen the language in this proposal as recommended in our 
testimony on H.R. 4195 in the 111th Congress, and by the National 
Capital Memorial Advisory Commission (NCMAC) at its meeting on April 
21, 2010. The National Capital Memorial Advisory Commission has not 
reviewed S. 421, but in their June 23, 2011 review of the companion 
bill H.R. 854, which is almost identical to this bill, they expressed 
support for the concept of a memorial to the ideals of the Peace Corps. 
NCMAC found that the provisions of H.R. 854 connect the ideals to the 
exceptional aspects of American character that are exhibited in the 
ideals of the Peace Corps. We share the Commission's support for the 
idea of commemorating volunteerism and international cooperation as 
worthy ideals and practice of the Peace Corps.
    Finally, S. 1421 provides that unspent funds raised for the 
construction of the memorial be provided to the National Park 
Foundation for deposit in an interest-bearing account as stated in 40 
U.S.C. Section 8906(b)(3), as recommended in our testimony on H.R. 4195 
in the 111th Congress. We appreciate the inclusion of this provision, 
and would like to work with the committee on an additional technical 
amendment to the language.
    That concludes my testimony, Mr. Chairman. I would be pleased to 
respond to any questions from you and members of the committee.
                                s. 1478
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1478, a bill to modify the boundary of the Minuteman Missile National 
Historic Site in the State of South Dakota.
    The Department supports S. 1478. This bill would transfer 
administrative jurisdiction over two parcels of Buffalo Gap National 
Grasslands from the U.S.D.A. Forest Service (FS) to the National Park 
Service (NPS) for administration as part of Minuteman Missile National 
Historic Site in Philip, South Dakota. Of the land transferred, 25 
acres would be used for a visitor facility and administrative site and 
an additional 3.65 acres would be used for the construction of a 
parking lot and other administrative uses.
    The new visitor facility and administrative site would be located 
north of exit 131 on Interstate 90 in Jackson County, South Dakota. 
Minuteman Missile's enabling legislation states, ``On a determination 
by the Secretary of the appropriate location for a visitor facility and 
administrative site, the boundary of the historic site shall be 
modified to include the selected site.'' The enabling legislation also 
included a map of the visitor center site indicating that the proposed 
area would be 10 acres in size. Later planning indicated that a minimum 
size for the visitor center site would require 25 acres. National Park 
Service (NPS) and FS personnel, in consultation with our respective 
solicitors, have determined that in view of the increase in acreage, it 
would be appropriate to provide for that increase in new legislation. 
There would be no cost involved in this land transfer.
    The 3.65 acres is located directly adjacent to the Delta 1 Launch 
Control Facility. The parking lot will be used to accommodate visitors 
to this facility. Currently, visitors must park inside in the fence of 
the launch facility, but this is an intrusion on the cultural 
landscape. In addition, the parking lot is not large enough to 
accommodate all visitors to this site.
    The FS is in agreement with the recommended land transfers and has 
provided Minuteman Missile National Historic Site with an outline of 
the land transfer process. The NPS architects and engineers conducted 
an on-site visit in March 2009 to determine the number of acres 
necessary for the land transfer. They met with representatives from the 
FS and agreed to the transfer.
    Public Law 106-115 established the Minuteman Missile National 
Historic Site. The General Management Plan/Environmental Impact 
Statement (GMP/EIS) scoping began in 2001 and the record of decision 
was signed on July 2, 2009. The GMP's preferred alternative included 
the development of a visitor center/administrative facility and a land 
transfer from the FS to the NPS for the site of the facility and 
recommended the preferred location at I-90 South Dakota Exit 131 with 
up to 25 acres for the complete facility. The GMP also recommended the 
development of an unpaved parking lot and other support functions on 
the 3.65 acres at the Delta 1 Launch Control Facility to provide for 
additional opportunities for visitors arriving in commercial and school 
groups, RVs and passenger vehicles.
    The estimated cost to build the visitor center and administrative 
site is $4.4 million, and the estimated cost of annual operations and 
maintenance of both facilities would be approximately $750,000. All 
funds would be subject to NPS priorities and the availability of 
appropriations.
    The transfer between the NPS and the FS would be conducted in 
accordance with applicable laws, regulations, and policies.
    Mr. Chairman, this concludes my testimony. I look forward to 
working with the Committee on a technical issue with the map reference. 
I am prepared to answer any questions from members of the Committee.
                                s. 1537
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1537, a bill to authorize the Secretary of the Interior to accept 
from the Board of Directors of the National September 11 Memorial and 
Museum at the World Trade Center Foundation, Inc., the donation of 
title to The National September 11 Memorial and Museum at the World 
Trade Center, and for other purposes.
    The Department appreciates the enormous significance of the events 
of September 11, 2001, to the nation and supports memorializing and 
providing educational opportunities to learn about that day and its 
effects on our country and on the world. We would like to continue to 
work with the committee and Senator Inouye to address issues noted 
below in order to clarify the role of the National Park Service (NPS), 
the appropriate funding mechanism, and the source of those funds.
    On September 11, 2001, the United States was attacked by terrorists 
and nearly 3,000 innocent people at the World Trade Center in New York 
City, the Pentagon, and in a field in Shanksville, Pennsylvania, were 
killed. Since that day, millions of people from around the country and 
the world have visited ``Ground Zero'' in New York City. In 2003, the 
World Trade Center Memorial Foundation, renamed the National September 
11 Memorial and Museum at the World Trade Center Foundation, Inc. 
(Foundation) in 2007, was established as a nonprofit organization 
dedicated to raising funds for and overseeing the design, construction, 
and operation of the National September 11 Memorial and Museum at the 
World Trade Center site. The memorial was envisioned to remember and 
honor the those who died in both the World Trade Center bombing of 
February 26, 1993, and in the September 11, 2001, attacks. After an 
extensive design competition, the Michael Arad and Peter Walker design, 
consisting of two pools in the footprints of the original Twin Towers 
surrounded by a plaza of oak trees, was selected. Through private 
contributions and government grants, a portion of the memorial site was 
constructed and opened to the public on the tenth anniversary of the 
terrorist attacks on September 11, 2001. The museum is scheduled to 
open to the public in 2012. The museum will display artifacts 
associated with the events of February 26, 1993, and September 11, 
2001.
    S. 1537 authorizes the Secretary of the Interior (Secretary) to 
accept the title to the National September 11 Memorial and Museum at 
the World Trade Center in New York City, New York. The donation of the 
title is contingent upon the agreement of the Board of Directors of the 
Foundation, the Governor of the State of New York, the Governor of the 
State of New Jersey, the Mayor of the City of New York, and the 
Secretary. The Secretary would be authorized to provide both technical 
and financial assistance to the Foundation and to consult with the 
Secretaries of Defense, Education, Homeland Security, and Housing and 
Urban Development, and the Administrator of General Services to provide 
assistance to the Foundation. Further, the bill authorizes $20,000,000 
to be appropriated annually, provided that they are matched with funds 
from non-Federal sources, beginning in fiscal year 2013.
    As discussed with the sponsors of the legislation, it appears the 
objective of the bill is to have the NPS assume title for the site and 
provide an annual payment for its operation without any federal 
involvement in the design, construction or operation of the memorial. 
There are very few circumstances, if any, within the NPS where the 
agency holds title to a property, but has no administrative function. 
The legislation has no provisions for the site to be administered in 
accordance with the laws generally applicable to units of the National 
Park System, including the National Park Service Organic Act (16 U.S.C. 
1 et seq.).
    In addition, the $20 million in annual appropriations authorized by 
S. 1536 would likely come out of the NPS budget, reducing the amount of 
operational funding available for the numerous needs of the 395 
designated units of the National Park System. The National Park Service 
does not have a program that is appropriate or capable of absorbing an 
offset of the magnitude proposed in this bill. The $20 million in 
annual funding is larger than that appropriated for nearly 99% of the 
units of the National Park System. There are no other circumstances 
where NPS provides annual operating funds to a site not managed in 
accordance with NPS standards except for some affiliated areas which 
receive relatively small amounts. A more appropriate mechanism for 
accomplishing the purpose of this legislation may be to establish grant 
authority through an appropriate federal agency.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or any members of the subcommittee may have.

    Senator Udall. Thank you, Mr. Shaddox. We have been joined, 
as I mentioned earlier, by the Honorable Terrie Suit who is the 
Secretary of Veterans Affairs and Homeland Security wearing a 
green ribbon and we look forward to your testimony.

  STATEMENT OF TERRIE SUIT, SECRETARY OF VETERANS AFFFAIRS & 
          HOMELAND SECURITY, COMMONWEALTH OF VIRGINIA

    Ms. Suit. Thank you, Mr. Chairman. I am here also to direct 
my comments as Senator Warner did, toward S. 1303. It is really 
hard to add to or pend any of the wonderful, eloquent comments 
that the Senator made. I have submitted verbal testimony or for 
the record and I rather than trespass on your time and go 
through all of that, let me just underscore the historic 
significance of Fort Monroe is really something that no other 
location in this country has. It began in 1609, you know, a 
Captain Smith identified that location as a place for a 
fortress for fortifications.
    We have an incredible Native American history there, 
incredible African American history, I do not think there is 
any other site in America that is as iconic for the history of 
our African American community as Fort Monroe, given that is 
where slavery began, that is where the first ships landed, that 
is where slavery began to end. It is just an incredible site. 
We have just begun the process of the reuse of Fort Monroe. 
There is no time like now to look at making this a National 
Park and working with the partnership of the Park and the State 
to really guide the telling of the story of this incredible 
place. I just hope that the committee under your leadership, 
Mr. Chairman, will seriously consider this legislation and see 
it to a successful passage.
    [The prepared statement of Ms. Suit follows:]
  Prepared Statement of Terrie Suit, Secretary of Veterans Afffairs & 
        Homeland Security, Commonwealth of Virginia, on S. 1303
                              introduction
    Chairman Udall, Ranking Member Paul and distinguished members of 
the National Parks Subcommittee, on behalf of the Commonwealth of 
Virginia, I thank you all for the opportunity to testify today. This 
hearing to consider a National Park at Fort Monroe, Virginia represents 
the next major step in a process that began several years ago when the 
United States Army first learned it would be leaving this historic 
site. Since that time, the citizens of the Commonwealth, led by 
Governor, Bob McDonnell, have passionately advocated the telling of 
Fort Monroe's great American story, one that everyone in our nation 
should know and cherish.
                                history
    Historic Fort Monroe is located in the City of Hampton, Virginia on 
Old Point Comfort peninsula, part of Hampton Roads Harbor. It has a 
deep, rich military history dating back to the early 1600's. Over the 
course of 200 years, multiple forts called Old Point Comfort home until 
construction of Fort Monroe was ultimately completed in 1834. From that 
time, it began to serve as the assembly, training, and embarkation 
point for U.S. forces involved in multiple conflicts on US soil.
    Fort Monroe is one of the most important cultural treasures not 
only in the Commonwealth of Virginia, but in the entire nation. This 
geographically significant location served as the site for one of the 
darkest parts of our nation's history, the tragic beginning of slavery 
in America. While this darkness remained for over 240 years, in 1861 
Fort Monroe, in a rare chance at redemption, yielded it most compelling 
virtue by claiming its unique status as the birthplace of the Civil 
War-era ``Contraband'' decision. This decision created for the first 
time, a pathway to freedom from slavery for African Americans. 
``Freedom's Fortress'' bore witness to the struggles and triumphs of 
African American men, women and children who courageously self-
emancipated themselves from the hideous institution of slavery. Through 
tremendous adversity and at great risk, their efforts ultimately paved 
the way for the Emancipation Proclamation, granting freedom to all.
                         national park service
    With this amazing history in mind, the 2005 BRAC decision to close 
Fort Monroe immediately sparked discussions regarding a National Park 
Service presence at this historical landmark. Governor McDonnell fully 
embraced this initiative and with his election in 2010 directed his 
administration's support to this cause. Since that time the McDonnell 
Administration has worked closely with Mayor Molly Ward of the city of 
Hampton and our bi-partisan congressional delegation toward this 
mutually supported goal. The legislation before you today is a direct 
by-product of those combined efforts.
    Recent public hearings in south-eastern Virginia, known as Hampton 
Roads, resulted in more than 1,000 citizens coming forward to 
passionately support a National Park at Fort Monroe. More than twenty-
five different organizations were represented at these meetings as 
well, including:

  <bullet> National Trust For Historic Preservation
  <bullet> National Parks Conservation Association
  <bullet> Hampton Contraband Slave Society
  <bullet> Citizens for a National Park at Fort Monroe
  <bullet> Chesapeake Bay Foundation

    There continues to be strong, bipartisan support at the federal and 
state levels for a National Park at Fort Monroe. Hampton Mayor Molly 
Ward has been a stalwart for the Fort Monroe Authority working 
tirelessly as the representative for the City of Hampton. Mayor Ward 
could not attend today's hearing as her city is hosting the President's 
visit, but she continues to work with the Governor and the citizens to 
make sure the President, who is visiting Hampton today, is fully aware 
of the tremendous support for a National Park at Fort Monroe. Though 
she couldn't be here, she has presented written testimony to the 
committee.
                         fort monroe authority
    The Fort Monroe Authority has diligently identified the most 
appropriate footprint for the park, carving out 324 acres which 
includes 4 historical structures, so that the National Park both 
compliments and supports the concept of a vibrant community working and 
living at Fort Monroe. The Authority believes the footprint identified 
in this legislation is most desirable from a fiscal perspective rather 
than making the entire Fort a National Park.
    The Fort Monroe Authority has also established the Fort Monroe 
Foundation, which will function as a non-profit, fundraising 
organization to support educational programs. These programs will 
ensure that the marvelous history of Fort Monroe is told for 
generations to come.
    In addition, the Fort Monroe Authority has worked meticulously with 
the Army and other stakeholders to create a Programmatic Agreement that 
sets forth criteria to maintain the historic nature and coastal views 
at Fort Monroe. This Agreement along with any easements which may be 
required by the National Park Service will provide a National Park at 
Fort Monroe with open spaces for all to enjoy and will also play a 
critical economic role in sustaining the vibrant community being 
planned. It is the declared policy of the Commonwealth of Virginia to 
exercise exemplary stewardship in protecting the historic resources at 
Fort Monroe while also providing public access to the Fort's historic 
resources and recreational opportunities.
                                closing
    The Governor along with the leaders and citizens of Virginia truly 
believe Fort Monroe is a rare and essential national treasure, one 
whose history and beauty must be shared with current and future 
generations of Americans. We feel this can best be accomplished through 
the efforts of the National Park Service, in whom the American people 
have long entrusted the nation's historical landmarks for preservation 
of history and heritage.  It is therefore in the public interest to 
preserve Fort Monroe and its surrounding lands and buildings with 
dignity, integrity and with the level of excellence that only the 
National Park Service can offer.

    Senator Udall. Thank you, Secretary Suit. We will move to 
questions at this point. Let me start, Mr. Shaddox, with S. 
1421. You testified that the Interior Department supports the 
bill. I would like to clarify one issue in your testimony. You 
have indicated that the Department's support is based on your 
understanding that the Memorial will recognize the 
establishment of the Peace Corps and not its individual 
Members. My understanding of the Memorial is, proposed Memorial 
I should say, slightly different, this is not a Memorial to the 
Peace Corps itself or even the individual volunteers who served 
in the Peace Corps but rather the Memorial will Commemorate the 
mission and the ideals of the Peace Corps. Now this is a subtle 
difference, but I think it is an important distinction. I 
wonder if you agree.
    Mr. Shaddox. Yes, Mr. Chairman. That is correct, we support 
the mission and the ideals of the Peace Corps.
    Senator Udall. Thank you for that clarification. If I 
might, let me now turn to S. 1083 and 1084, the Smoky Hill and 
Shawnee Trail Studies. As I understand your testimony, the 
Department supports the idea of the new Trail Studies with a 
caveat of noting that you have far more studies already 
authorized than you will be able to complete in the near 
future. However, you noted concerns with the private property 
language in the 2 bills which I believe is something that has 
not been typically included in these types of bills. Could you 
please elaborate how the National Park Service handles private 
property issues when doing Trail Studies?
    Mr. Shaddox. Yes, Sir. Yes, that language is normally not 
included in bills. When they do studies for trails of this 
nature, it is through the NEPA process, it is a very public 
process, the public is involved at all levels--local 
communities, constituent groups, citizens, whoever else wants 
to be involved. Usually they incorporate several local groups 
when they do the study to make sure that they do outreach to 
almost everyone they can get to, to have comment into the 
process so that all of their concerns can be addressed. The 
language in the bills would put an undue burden on the Service 
in that it would require a more expensive and costly process 
and also be very labor intensive. So we feel that our normal 
processes which are very extensive already would take care of 
those issues for those folks out there that are involved in the 
trail.
    As well, private property rights are already protected 
because everything that would be accomplished through these 
efforts would be through, for example, a willing seller, or a 
willing donor. The land owners would be participating only on a 
willing basis. So it would be up to them to come to the table 
and participate in this process.
    Senator Udall. Thank you for that clarification. As this 
moves forward, we may need to continue the conversation based 
on what additional feedback we hear from the participants and 
these 2 studies.
    Mr. Shaddox. Sure.
    Senator Udall. But that is an important starting point, 
thank you for that. Let me turn to Fort Monroe, and I am going 
to start with you, Mr. Shaddox, then I will turn to the 
Secretary. If the legislation is passed does the Park Service 
anticipate that it would acquire all of the property within the 
boundary or do you anticipate there would be some non-Federal 
properties remaining?
    Mr. Shaddox. There would be some non-Federal properties 
remaining. The property would actually go to the State of 
Virginia and then the State of Virginia would donate only those 
properties that would be necessary for interpretive purposes or 
for historic purposes, properties that the National Park 
Service could help manage as some kind of a fundamental unit to 
help interpret the story of Fort Monroe.
    Senator Udall. What kind of timeframe do you anticipate it 
will take to get the Fort open to the public once it is 
designated as a National Historical Park?
    Mr. Shaddox. Once legislation passes, Sir, and it is 
designated, we could have almost an immediate presence. We 
would look for some management types, a superintendant or some 
type of management service to get in there as soon as possible.
    Senator Udall. Your testimony indicated that the service 
estimates initial capital investments will total around 5 
million dollars. Do you have any estimate on what the long-term 
maintenance and upkeep costs associates with a historic set of 
structures like the Fort would be?
    Mr. Shaddox. Yes Sir. Preliminarily, through our studies to 
date, we think that the operational cost is going to be 
somewhere around $700,000-1.6 million per year and that would 
include operations and maintenance.
    Senator Udall. Thank you for that. Secretary Suit, let me 
turn to you. Thanks again for being here. I am looking at this 
wonderful aerial photograph of the Fort, it is quite striking.
    Ms. Suit. Yes.
    Senator Udall. Including the waterway that surrounds the 
fort and the setting, I can see why there is such affection for 
the fort as a physical presence but also the history is quite 
important. I understand the Army's mission ended last month at 
Fort Monroe and that several parcels within the fort boundary 
will convey to the Commonwealth of Virginia. Can you provide 
more detail about the current status of the fort? Has the site 
now been transferred to the Commonwealth or is that still in 
progress?
    Ms. Suit. That is still in progress. The Army is still 
finalizing their deactivation while the mission has been 
deactivated. There is still a number of things, housekeeping 
items they are doing at the buildings. So we anticipate 
receiving the reversionary property around January, February 
2012. There are 3 parcels, 2 parcels that are in dispute as to 
whether or not they revert. The Commonwealth when we turned the 
post over to the Federal Government in the 1800s put a reverter 
clause in the deed, saying if you ever stop using it, it comes 
back to the Commonwealth of Virginia. So we know clearly what 
parcels revert.
    We have 2 areas that are filled bottom lands that had later 
deeds conveyed to the Army. The Army and the Commonwealth are 
disputing whether those revert and we are going through what is 
called an economic development conveyance negotiation. Rather 
than litigating the title to those deeds, we are negotiating 
the transfer of the 2 parcels. Then there is a final parcel 
that is the long natural area that you see on that map that has 
the very nice access to the bay front and the beaches. That 
parcel is called is Dog Beach. That parcel does not revert. 
That parcel was acquired through condemnation and through 
direct purchases by the Army. That parcel is one of the parcels 
the National Park Service is very interested in from the 
standpoint of an urban natural area as a part of the National 
Park. When you asked the question as to the cost of 
maintenance, having a natural area as the predominant acreage 
in the park, gives you a little bit lower maintenance than 
having a whole lot of buildings.
    We are keeping most likely, the preponderance of the 
buildings. The National Park Service has indicated an interest 
in the natural area and quarters where building 1, which is the 
old headquarters and the building 50, which is the oldest 
building and was a bachelor quarters. In building 17, which 
were the Lee quarters and that was where the contraband 
decision was made and then on the parade ground. Then we are 
looking at easements that we would convey to the National Park 
Service to control usage, making sure that usage in all the 
other areas are compatible with the mission of the National 
Park Service. So, hopefully that kind of answers your 
maintenance question. They are not taking a lot of historic 
buildings, we are keeping the burden of those in the event that 
this were to pass. As far as the process, 2012 is when we 
anticipate receiving the bulk of the reverter deed and then 
negotiating with the Army on the other parcels.
    Senator Udall. That detail is very helpful. Let me follow 
on. You reference, I am sorry, the bill references Fort Monroe 
Authority and you referred it in your testimony as having an 
instrumental role in determining the boundaries. Can you 
provide a little more information about the Authority? Is it a 
State entity? Is its role essentially to oversee the economic 
development of the property?
    Ms. Suit. Sure. So, Mr. Chairman, the Federal Government 
requires in a BRAC transaction that you have a Federal 
Development Authority that receives the property. In, for the 
purpose of Fort Monroe, by statute, the Commonwealth created 
the Fort Monroe, originally a Development Authority, the Fort 
Monroe FADA. We have now, as of 2010 legislation, converted 
that to the Fort Monroe Authority, the FMA is how it is 
referred to. That Authority has Gubernatorial Appointees, it 
has legislators who represent the Fort Monroe area and it has 
representatives from the city of Hampton which is the 
jurisdiction that the Fort rests within. So it is a very active 
board, a very bipartisan board and I chair the board.
    Senator Udall. Any steps being taken to ensure that 
development of the Fort properties outside the park boundary 
will be complimentary or consistent with the designation of the 
National Park?
    Ms. Suit. Several steps. The first step, any national 
landmark has to, that has transferred by the Federal Government 
to another entity, because it is a National Historic Landmark 
has to have a programmatic agreement to insure the continued 
preservation of that property. That programmatic agreement was 
agreed to, not sure the, it was probably 2 years ago or a year 
ago by the former Governor, Governor Cain. He was a Signatory 
of the National Park Service, I believe, was the signatory. The 
FADA at the time was a signatory, the Fort Monroe FADA and a 
number of other interested parties were signatories to that 
programmatic agreement which serves as a contract between the 
Commonwealth of Virginia and the Federal Government, which 
very, very succinctly lays out the protections that have to be 
put in place. We are now working on developing and completing 
requirements of the programmatic agreement, which include 
design standards. Standards which will dictate exactly what 
kinds of structures could be built, the adaptive reuse 
materials that can be utilized during reuse.
    Of course view sheds are protected in the programmatic 
agreement. Then beyond that we are working on easement language 
should the National Park Service establish a presence. They 
have requested that we actually record easements that would 
pretty much put, codify if you will, the in perpetuity, the 
programmatic agreement. The programmatic agreement is very 
difficult to change but it could be changed. Very difficult, 
but it could be changed. An easement, once that easement is 
recorded, that is it, that runs with the land. So we will be 
working on that. Not only for the National Park Service, but 
also for our own purposes in preservation.
    Senator Udall. I am not a lawyer so I can ask questions I 
do not know the answer to. Walker Field, I know here, was at 
one point or another an active air field. Are there plans to 
return it to a more natural state? Would it be left as an air 
field? What is in the plan for the field?
    Ms. Suit. Our hope, Mr. Chairman, is that will be a part of 
the parcel that conveys to the National Park Service once they 
have the authority to receive it. The Governor has written a 
letter to the Secretary of Interior expressing his intent to 
convey that parcel, that area of property, should all of this 
effort be successful. So our hope would be that we would turn 
that over to the National Park Service and they would determine 
the usage. We do not have any plans on the books to turn that 
back into an airstrip.
    Senator Udall. Yes, you can clearly see from the maps in 
the photographs that this spit of land performs multiple 
functions, I am sure. It is a form of a barrier island but that 
those areas that give access to the public to the bay would be 
a great natural area.
    Thank you for your testimony and further clarification. I 
am going to turn back to a couple of the other bills. I may 
have further question for you so if you would stay that would 
be great.
    Ms. Suit. Not a problem.
    Senator Udall. Mr. Shaddox, let us turn to Coltsville 
National Historical Park, that is S. 1347. Last Congress the 
Park Service testified on a similar proposal. At that time you 
did not support the legislation stating that while the 
Coltsville site met the test of national significance and 
suitability, it simply was not feasible to designate due to 
financial issues. Can you elaborate on what happened to resolve 
this issue?
    Mr. Shaddox. Yes, Sir. Through a lot of work since that 
time, language was included in this bill to give the Secretary 
contingencies. In other words, he would be able to establish 
the park if he could ensure that enough land was going to be 
donated to make a sufficient site for a park. It has always 
been nationally significant but some of the barriers were cost 
and things like that, and so the work has been to overcome some 
of those barriers. There has been an agreement on behalf of the 
locals to donate 10,000 square feet for a visitor contact 
station. The part about reviewing finances to make sure that 
everything is going to be financially feasible is very 
important. Also the contingency clauses that allow the 
Secretary to make sure that there is appropriate access for 
visitors to the historical sites and parts of the site, is very 
important. So, because the Congressional sponsors included 
those provisions in this bill, we feel that we can support it 
based on those contingencies.
    Senator Udall. I understand the Coltsville site will have a 
mix of commercial and residential uses. Does that potential set 
of uses cause any park management problems?
    Mr. Shaddox. No, Sir, it does not.
    Senator Udall. OK.
    Mr. Shaddox. In fact it is a very desirable asset at this 
site.
    Senator Udall. Let me turn, finally, to your testimony 
relating to S. 1537, the September 11 Memorial bill. Your 
testimony notes the Park Service is assuming that intent of the 
bill sponsors is to have the Park Service assume nominal title 
and provide financial assistance, but have no management role 
or authority. As I read the bill, though, it seems to simply 
authorize the Secretary of the Interior to accept donation of 
title to the Memorial subject to any terms and conditions 
agreed to by the parties. I read this as a discretionary act by 
the Secretary. He is not required to accept the donation. Why 
can't the Department make sure its management concerns are 
addressed prior to accepting the donation of title to the 
Museum?
    Mr. Shaddox. It would help, Chairman, if the ability to do 
that would be expressed in the legislation so that we could 
work out all these contingencies prior to accepting title. We 
found very few circumstances, if any, where agencies accept 
title to property but the agency has no administrative 
function. We are looking forward to working with the committee 
and others to try to establish or clarify what role the 
National Park Service will play in this memorial and identify 
those appropriate funding mechanisms.
    Senator Udall. So to clarify, you are continuing to want to 
further find what this might mean. Is this a unique 
arrangement? You said the Park Service is generally not in the 
business of accepting a title under such circumstances. Are 
there any other analogs? Are there any other situations that 
are similar to this.
    Mr. Shaddox. We do not normally accept title to areas where 
we have no jurisdictional control or where there is no 
provision for us to follow the Organic Act or things like that. 
We would like to have those mechanisms in place so that we 
could administer the site appropriately for the people.
    Senator Udall. OK. Let me keep following this line of 
discussion. Assuming there was a desire by the Board of 
Directors of the memorial to donate it to the Park Service, do 
you know if the agency has made any assessment of whether this 
site would be appropriate for National Park Service management?
    Mr. Shaddox. I am not aware of that right now, but I would 
be glad to provide that at a later date.
    Senator Udall. You express concern that the proposed $20 
million annual funding would likely have an adverse affect on 
the Park Service's budget. Are your concerns lessened if the 
funds are appropriated in a way that does not reduce the Park 
Service's budget?
    Mr. Shaddox. Yes. We would be glad to work with the 
committee to find ways in which the money could be provided 
through mechanisms that would not reduce the Park Service 
budget in any way. Twenty million dollars is a lot of money. 
There are only about 6 units in the National Park system that 
actually get that kind of money to operate. So almost 99 
percent of our units get far less to operate. We would be 
interested in finding the appropriate Federal agency--whether 
it is a Park Service or some other agency--to administer those 
funds, perhaps through a grant or some other mechanism. Again, 
we would like to work with the committee on those issues.
    Senator Udall. Those are legitimate concerns the Park 
Service has expressed and this is a very important Memorial as 
we heard from Senator Inouye and we are going to continue to 
work to figure out the right way to do this.
    I want to thank you both, Secretary Suit I wanted to give 
you any further opportunity to say anything else that you did 
not have a chance to say, so I want to recognize you for one 
last time if you would like.
    Ms. Suit. Thank you, Mr. Chairman, we really appreciate you 
giving of the Commonwealth of Virginia an opportunity to speak 
before you today. The Governor, again, would be here but he was 
called down to Hampton due to the visit by the President. I can 
tell you that this probably a very unique situation because it 
is a bipartisan effort. There is no known opposition to this 
effort to take part of Fort Monroe and make it National Park 
Service. I mean, we are all holding hands on this. Our Mayor 
who is a Democratic Mayor of Hampton, our Governor who is a 
Republican, our local Congressman Rigell who is a Republican, 
Congressman Scott who is a Democrat and then of course our 2 
Senators. So, as you can tell we were all holding hands and it 
is a very, very much a joint effort and something that we are 
hoping will come about. It would be good for America, it would 
be good for this Country, it would be good for, of course, the 
world to know that we have preserved, we have really taken the 
time now before it is too late to preserve such an incredible 
piece of the American story.
    Senator Udall. That is a wonderfully articulate and 
eloquent way to end the hearing. I want to thank you both. I 
want to also note that some members of the committee may submit 
additional questions in writing. If so we might ask you 2 to 
submit answers for the record. We will keep the hearing record 
open for 2 weeks to receive any additional comments and with 
that, the subcommittee is adjourned.
    Mr. Shaddox. Thank you.
    [Whereupon, at 3:28 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

   Responses of William D. Shaddox to Questions From Senator Barrasso
    Currently the Park Service has a maintenance backlog of 
approximately 10 billion dollars. The overall annual budget of the Park 
Service is 3 billion.
    That means if the Park only performed maintenance, it would take 
over 3 years to get the current park units properly cared for.
    Eight of the nine bills before us today involve the expansion or 
possible expansion of National Parks.
    Question 1. How does the National Park Service reconcile its 
support of creating new parks before the maintenance backlog is paid 
down?
    Answer. We will continue to address maintenance needs on several 
fronts. Funding proposed for line-item construction will be targeted 
primarily to addressing critical health and safety projects, especially 
if the project involves the repair of a facility for which corrective 
maintenance has been deferred. The National Park Service (NPS) will 
also continue to use other sources of funding for similar projects, 
including repair and rehabilitation funds, housing funds, and 
recreational fee revenue. The NPS will use operational maintenance 
funding, including cyclic maintenance, to help slow the deterioration 
of assets awaiting rehabilitation and to maintain the improved 
condition of repaired assets so that these projects do not become 
deferred. We will continue to target funding toward strengthening 
assets' critical systems (e.g. roofs, utility systems, foundations), 
which are the highest priorities because an overall asset will become 
further damaged and potentially non-functional if the critical system 
is impaired. We will also continue to work toward disposing of more 
low-priority assets that are contributing to the maintenance backlog. 
We do not believe that designations of new units of national parks or 
other public lands, which will help protect valuable natural and 
cultural resources for future generations, should be postponed because 
there is a maintenance backlog within existing units of public lands.
    Question 2. Does the National Park Service estimate the maintenance 
costs of new land acquisitions before making the decision to purchase 
additional land? If so, how does this factor into the decision-making 
process?
    Answer. Yes, the NPS estimates the costs of maintenance for new 
lands before proposing to acquire the lands. Estimated maintenance 
costs are one of the factors that are considered in the priority-
setting process for the Administration's annual budget requests. Most 
of the land the NPS acquires for existing parks is undeveloped, so 
there is relatively little contribution to the maintenance backlog from 
these new acquisitions.
    The majority of the NPS FY 2012 land acquisition request was for 
inholdings--isolated parcels of non-federal land that lie within the 
boundaries of parks. Acquisition of inholdings does not generally 
require any significant additional operating costs as usually no new 
staff or equipment are required to manage new lands within existing 
boundaries. In addition, these acquisitions greatly simplify land 
management issues for federal managers and neighboring landowners, 
thereby further reducing operational costs.
    Question 3. Shouldn't the National Park Service use land exchanges 
to acquire sensitive lands rather than paying to acquire any additional 
lands?
    Answer. The NPS considers all possible avenues to address the most 
urgent needs for recreation; species and habitat conservation; and the 
preservation of landscapes, and historic and cultural resources. The 
NPS has used land exchanges to acquire needed land in certain 
situations. However, in many situations, land exchanges are not a 
viable option, and therefore the NPS uses other means to acquire lands 
from willing sellers.
                                s. 1537
    In regard to S. 1537, I think it is imperative to take the time to 
determine if National Park Service involvement is in the best interest 
of the National Park Service, American citizens, and most importantly 
9/11 families.
    Question 4. Will you describe what is and what is not being 
transferred to the National Park Service in terms of decision 
authority, control, responsibility, management, and ownership regarding 
the museum and memorial?
    Answer. The bill would allow for the donation of the title to the 
memorial and museum to the United States for management by the 
Department of the Interior, contingent upon the agreement of the Board 
of Directors of the Foundation, the Governor of the State of New York, 
the Governor of the State of New Jersey, the Mayor of the City of New 
York, and the Secretary of the Interior. The bill does not address any 
change in decision authority, control, responsibilities, or management 
of the museum and memorial from its current state.
    Question 5. Has this type of arrangement been done before with the 
NPS?
    Answer. There are very few circumstances, if any, within the NPS 
where the agency holds title to a property, but has no administrative 
function.
    Question 6. In your testimony, you stated the $20 million in annual 
appropriations authorized by S. 1536 would likely come out of the NPS 
budget, reducing the amount of operational funding available for the 
numerous needs of the 395 other designated units of the National Park 
System.
    Will you elaborate on what type of ``needs'' would be affected for 
the balance of the National Park System units?
    Answer. Given the current budgetary situation, the NPS would likely 
be required to redirect funds from existing parks if Congress passes 
legislation requiring us to provide funds toward the annual operation 
of the Memorial. A $20 million annual contribution to the Memorial 
would require a redirection of about 1.5 percent of operating funds 
from each of the other existing park units. A reduction of this 
magnitude would most likely be taken through a reduction in seasonal 
operations at all other parks and deferral of maintenance projects. The 
reduction to fund the operation of the Memorial would be in addition to 
a number of similar reductions enacted in recent years.
    Question 7. Most memorial bills that come before this subcommittee 
seek to accomplish the completion of the respective memorials through 
private funding, such as the Oklahoma City National Memorial and 
Museum.
    Can you please address why this particular memorial requires 
federal tax dollars?
    Answer. It is our understanding that the federal funds are for 
operation of the site and not completion of its construction.
    Question 8. Wasn't the original plan to only use private funds?
    Answer. It is our understanding that private funds along with 
federal grants have contributed to the construction of the site.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

 Statement of Hon. Joseph I. Lieberman, U.S. Senator From Connecticut, 
                               on S. 1347
    Mr. Chairman, thank you for the opportunity to submit a statement 
in support of this important legislation, the Coltsville National 
Historical Park Act.
    In 1990, I had the privilege of introducing and successfully 
fighting for the legislation that established the Weir Farm National 
Historic Site as Connecticut's first and, as yet, only contribution to 
the National Park System. Over two decades later, I am honored to 
strive for the same outcome for Coltsville. I reintroduced legislation 
this past June, this time joined by my colleague Senator Blumenthal and 
Congressman Larson, which would designate Coltsville as a National 
Historical Park.
    Located on the banks of the Connecticut River in Hartford, 
Coltsville is at the heart of a cluster of historical landmarks of 
great significance for Connecticut and our entire nation. A newly 
established national park in Coltsville would span more than 200 acres 
and beckon tourists to such Hartford destinations as the homes of Mark 
Twain and Harriet Beecher Stowe, as well as to the great events 
organized by Riverfront Recapture along our beautiful waterfront.
    Coltsville's past is as compelling as its future possibilities. 
Samuel Colt, born in Hartford, was first famous for developing the 
revolving-breech pistol, which became one of the standard small arms of 
the world in the last half of the nineteenth century. Production of 
that firearm helped build a model town on the banks of the Connecticut 
River, including the Colt Armory, worker housing, Colt Park, the Church 
of the Good Shepherd, and the Colt family home, known as ``Armsmear''. 
At its peak during the twentieth century, the factory at Coltsville 
employed over 10,000 people and made a significant contribution to the 
country's efforts during the Second World War.
    But the legacy of the Colt operation goes well beyond the 
manufacturing of guns. Colt himself invented a submarine battery used 
in harbor defense, a submarine telegraph cable, and other innovations. 
The success of Samuel and Elizabeth Colt's precision firearms business 
led to other industrial advancements in Connecticut and throughout New 
England, including the manufacture of sewing machines and typewriters. 
Ultimately, the spirit of innovation fostered at Coltsville was crucial 
to establishing Connecticut's proud tradition of manufacturing 
everything from small arms to jet engines, and even the submarines that 
our service members use to defend our freedoms.
    I believe that memorializing Sam and Elizabeth Colt and their 
movement is particularly important as Americans struggle to emerge from 
a deep recession. The way we are going to revitalize our economy is to 
invest in people, to invest in and inspire innovation that will pioneer 
new industries that will create millions of new jobs. Coltsville is a 
historic landmark and a living reminder of the extraordinary advances 
in technology and innovation that have been America's story for over 
400 years.
    Last month, Secretary Salazar visited the old Colt factory, and was 
shown many of the important and distinguishing features that make 
Coltsville a perfect candidate to be named a National Historical Park. 
During the tour, Secretary Salazar announced that the National Park 
Service would support our legislation, and I look forward to working 
with Secretary Salazar's excellent team, along with Senator Blumenthal 
and Congressman Larson, to advance Coltsville's status as a National 
Historical Park.
    Thank you, Mr. Chairman.
                                 ______
                                 
   Statement of Hon. Jim Webb, U.S. Senator From Virginia, on S. 1303
    Thank you, Chairman Udall, Ranking Member Paul, and members of the 
National Parks Subcommittee of the Senate Energy and Natural Resources 
Committee. I appreciate the Subcommittee's attention to legislation I 
have introduced: the Fort Monroe National Historical Park Establishment 
Act of 2011 (S. 1303).
    I would also like to welcome our witness supporting this 
legislation, Terrie Suit, Governor Bob McDonnell's Secretary of 
Veterans Affairs & Homeland Security. In her capacity as a member of 
the Governor's Cabinet, Ms. Suit is also a member of the Fort Monroe 
Authority and point of contact on Fort Monroe for his administration. I 
am confident she will be able to answer any of your questions and 
demonstrate strong bipartisan support for this legislation.
    The site of Fort Monroe and Old Point Comfort, located in Hampton, 
Virginia, has been witness to centuries of American history. This 
history, from the approach of Captain John Smith to the region's 
emergence as the pre-eminent naval and maritime center on the Eastern 
seaboard, has helped shape the Commonwealth of Virginia and Hampton 
Roads as a region. The military component of the Fort Monroe peninsula 
alone has provided invaluable training and defense of our country.
    Fort Monroe has also played an important role in African-American 
history as well. Fort Monroe was a location where many of the first 
slaves came to in the New World. Centuries later, the site saw multiple 
significant events of the Civil War that tore our country apart. In 
1861, the Fort Monroe's acceptance of escaped slaves led to the pivotal 
``Contraband Decision'' by General Benjamin Butler, earning the Fort 
the moniker ``Fortress Freedom.'' This decision by General Butler would 
identify slaves as enemy contraband, and thus define them as property 
for `capture' by Union forces.
    Also during the Civil War, the Fort and its inhabitants were 
witnesses to the one of the first great naval battles during the 
legendary 1862 battle of the earliest ironclad vessels, the CSS 
Virginia and USS Monitor, and at one time or another played host to the 
likes of Robert E. Lee, Jefferson Davis, and Abraham Lincoln.
    Fort Monroe was officially ``deactivated'' on September 15, 2011 by 
direction of a 2005 Base Realignment and Closure recommendation. On 
that day, the U.S. Army relinquished its control (though it is still 
there performing final environmental cleanup) and the bulk of land at 
the site has reverted to the Commonwealth of Virginia. The legislation 
Senator Warner and I have introduced, to create the Fort Monroe 
National Historical Park, is vital to the local community, the 
Commonwealth, and to historic preservation in Virginia. Time is of the 
essence for this legislation because of the deadline mandated by BRAC. 
The sooner the legislation is considered and passed, the sooner the 
National Parks Service can coordinate with the Army's final efforts and 
thereby ensure the most cost effective transition and implementation of 
a new NPS site.
    As I stressed before, creation of the National Park outlined in our 
legislation is supported by a wide range of elected officials from both 
parties, numerous local and national groups, ranging from conservation 
organizations to churches, and thousands of local residents of the 
Hampton Roads area. These constituents submitted over eight thousand 
comments of support during and after the Department of Interior's 
public hearings in July. In an additional show of bipartisan support 
for this concept, Representative Scott Rigell from Virginia has 
introduced the companion bill to S. 1303 (H.R. 2456) in the House of 
Representatives. This legislation is a prime example of federal, state 
and local cooperation though all levels of government and engagement 
with local residents. I have attached a list of supportive legislators, 
local officials and various organizations,* from prominent Civil War 
entities to various historic preservation groups who endorse a National 
Park designation at Fort Monroe.
---------------------------------------------------------------------------
    * List has been retained in subcommittee files.
---------------------------------------------------------------------------
    Our legislation is straightforward; it establishes, and 
specifically defines the boundary of the proposed Fort Monroe National 
Historical Park, authorizing the Secretary of the Interior to complete 
a general management plan for the Park. It authorizes the Secretary to 
enter into cooperative agreements outlining the further preservation of 
additional non-federal properties within the boundary of the Park, as 
well as those in close proximity to the Park that are related to events 
associated with the site. And S. 1303 provides for cost effective 
management of the park, including the cost share of a visitors center 
and coordination with a Fort Monroe Foundation to aid with future 
funding possibilities.
    From the National Park Service's perspective, during a study to 
consider the creation of a potential National Park, their staff 
determined that ``resources associated with Fort Monroe are nationally 
significant and likely to be found suitable for potential designation 
as a unit of the national park system.'' With this interpretation, we 
have worked carefully to utilize the Park Service's valuable technical 
assistance and drafting services, which included discussions with the 
Director of the National Park Service himself, Jon Jarvis.
    The Fort Monroe National Historical Park will provide jobs, tourism 
and public recreation in a scenic urban park to not only Hampton Roads, 
but to our state and nation at large. S. 1303 will allow Fort Monroe to 
serve as a unique National Park addition to an already superb set 
National Park Service sites within Virginia.
    In conclusion, members of the Subcommittee, this legislation 
provides obvious long term preservation and economic benefits, and I 
again respectfully urge the National Parks Subcommittee and the full 
Senate Energy and Natural Resources Committee to advance S. 1303 as 
expeditiously as possible. I look forward to working with my colleagues 
in the Senate towards final passage on the Senate floor.
    Thank you.
                                 ______
                                 
 Statement of Eileen Tallon, Mother, and Rosaleen Tallon DaRos, Sister 
    of 9-11 Firefighter Sean Patrick Tallon, Yonkers, NY, on S. 1537
    We lost our only son and brother, Sean Patrick Tallon on September 
11, 2001. He was a probationary firefighter for the City of New York. 
The memorialization of Sean and all those innocents who perished on 9-
11 has been a very important issue for us. We regret that we will not 
be able to attend tomorrow's Senate hearing on the proposal H.R. 2882 
for a federal grant of $20 million to the NYC 9-11 Memorial and Museum. 
We feel that if federal money is given to this memorial and museum, the 
current private organization operating the 9-11 memorial and museum 
should be replaced by the National Parks Service. If the federal 
government is going to attach itself to this project financially and 
assume the projected financial burdens of the future, the National Park 
Service should be directing the operations, not a private organization.
    However, if complete replacement of the private entity is not 
possible, at the very minimum, there should be full oversight of the 
operations of the 9-11 Memorial and Museum by the federal government. 
For example, the Holocaust Museum receives federal funding but the 
President of the United States appoints the head of the museum and 
there is complete oversight.
    If the American taxpayer will be paying for the memorial and museum 
for posterity, they deserve to oversee its operations.
                                 ______
                                 
          Statement of Glenn Corbett, Waldwick, NJ, on S. 1537
    I have attached a copy of my op-ed article which appeared in 
today's The Record of northern New Jersey. In addition, the newspaper 
printed an editorial in the same edition dealing with S. 1537. Here is 
a link to the newspaper's editorial: http://www.northjersey.com/news/
opinions/132032998_9_11_oversight.html
    I respectfully request that both documents be included in the 
official record.
    Thank you very much for your assistance.
               attachment 1.--the record: 9/11 oversight
                                         Tuesday, October 18, 2011.
    EVERYTHING about the 9/11 Memorial has been complicated: its 
design, its location and its costs. Now that it is open, how it will be 
funded in perpetuity is subject to a debate.
    Congress may provide $20 million annually to defray a third of the 
operating costs. For that money, Congress should gain oversight on how 
the memorial and museum, which has yet to open, are run. Anything less 
is unacceptable.
    There are several funding options for the memorial. At present, the 
National September 11 Memorial and Museum at the World Trade Center 
Foundation runs the memorial. About two-thirds of the construction 
costs of the memorial and museum were raised from private donations: 
$400 million of the total $650 million. The non-profit foundation could 
retain full control while receiving the $20 million. This is a recipe 
for mismanagement.
    Another option would give the federal government oversight, as it 
has at the U.S. Holocaust Museum in Washington. That museum receives 
about 56 percent of its annual $90 million budget from the federal 
government. The museum is run by a panel whose members are appointed by 
the president, its books are open to the public, and its staff includes 
federal employees whose salaries are set by pay scales.
    Four 9/11 Memorial foundation executives received total 
compensation of more than $300,000 each in 2009. The president of the 
foundation, Joe Daniels, was paid $371,000. By comparison, the 
president of the Smithsonian Institution is paid more than $520,000. 
It's hard to believe that running the national 9/11 Memorial and museum 
is akin to running the Smithsonian.
    The last option would involve ceding the memorial and museum to the 
federal government and making it part of the National Parks Service. 
The Port Authority of New York and New Jersey owns the land.
    The former World Trade Center site is a tangle of infrastructure, 
ego and conflicting commercial and public-use interests. The last thing 
that should happen is to cede a piece of this intricate puzzle to the 
federal government. The Flight 93 National Memorial near Shanksville, 
Pa., is a national park. But it does not have a PATH train running 
around it, or subways running near it, or commercial office towers. If 
Congress wants to ensure that the Trade Center site remains mired in 
bureaucracy forever, then it should make the 9/11 Memorial and museum a 
national park. This is a bad idea. So is no oversight whatsoever.
    An arrangement similar to the National Holocaust Museum makes the 
most sense. In the decades to come, private fund-raising will not be as 
robust. The patriotic fervor felt after Sept. 11, 2001, has diminished 
after 10 years; after 50, it will not exist. It may be a bitter pill to 
swallow, but the more time passes, the greater the need for the federal 
government to step in to ensure that the memorial and museum are well-
maintained.
    There has always been tension between the families of Sept. 11 
victims and the officials charged with creating a proper memorial. We 
do not see federal assistance as a ``bailout.'' We do not see how the 
memorial and museum could ever have been self-sustaining, given its 
design. We do not believe that it should be self-sustaining. The 
memorial is free and the museum fees must remain affordable to the 
millions of visitors who will come there to gain perspective about that 
tragic day.
    But the federal government should have oversight of how a $20 
million annual subsidy is spent. This museum should not be a place 
where top administrators make huge salaries. It should be a place where 
workers are fairly paid, but where administrators realize they are 
overseeing something unique. It is not just a museum that explains how 
people died on Sept. 11, 2001; it is the place where they died.
    It is part of America's history, its legacy to future generations. 
This is one place where federal oversight is not only needed, but 
expected.
no public bail out for the 9/11 memorial and museum without respect and 
                         fiscal responsibility
    The recent opening of the 9/11 memorial at the World Trade Center 
has brought thousands of people to the site of America's worst 
terrorist attack. Many left in awe of the pair of 200 foot square 
waterfalls, an impressive and striking sight indeed.
    The world's largest man-made waterfalls are an engineering marvel. 
They are also an economic albatross.
    Recently, bills were introduced into the United States House of 
Representatives and Senate to provide an annual $20 million handout to 
the foundation representing the National September 11th Memorial and 
Museum. The congressional bills allow for the Department of Interior to 
accept a ``gift'' of the property of the memorial and museum in return 
for the annual stipend. In addition, the existing foundation, with it's 
incredibly highly paid senior staff (the President of the memorial was 
reportedly paid $371,307 in 2009), would continue to run the memorial 
and museum, with no oversight.
    Essentially, the federal government will be given the mortgage, 
ownership, and responsibility for this sacred site, but have virtually 
no control over it.
    How is it possible that the whopping $60 million in total annual 
operating costs were forgotten? Were they ever even considered? Who was 
supposed to pay for the waterfalls that will operate 24 hours a day, 
365 days a year?
    Many of the 9/11 families that I have worked with are opposed to 
the plan. They do not feel the federal government should pay for an 
enormously expensive memorial and museum in which the federal 
government had virtually no role in. The $700 million design was never 
selected by the 9/11 families either. No one would argue that a 
dignified, high-quality memorial was appropriate. Yet, these same 
families never asked for such an expensive and elaborate memorial--they 
were hopeful that a simple and inspiring monument would be built. That 
never happened.
    For several years now, these families have fought a long and 
contentious battle with the National September 11th Memorial and Museum 
over a variety of issues. Although their fight for displaying the ranks 
of emergency responders and military personnel, the titles of clergy, 
and the ages of all 9/11 victims on the memorial has been rejected by 
Memorial officials, there are several remaining issues. These include 
such things as:

  <bullet> Placement of the victims' photographs crammed into a ``river 
        of faces'' in the basement of the museum, 7 stories below 
        ground, with some victims' photos 12 feet above the floor in 
        the museum. The terrorists, on the other hand, will be placed 
        in their own nearby corridor with their photos at eye level. In 
        addition, the terrorists will be provided with printed 
        martyrdom quotes next to the photos and artifacts in some cases 
        (Mohammad Atta's visa, for example). While the information 
        about the terrorists will be right next to their images, 9/11 
        victim information and photos of artifacts must be looked up in 
        a handful of computer kiosks.
  <bullet> The unidentified human remains of 9/11 will be placed in the 
        middle of the museum, in the basement area, seven stories below 
        ground. Victims' families will have great difficulty, jostling 
        with tourists trying to enter the museum and access this 
        location; extended family members will have to pay a $20 
        admission fee to get access to this area.
  <bullet> There are significant safety and security concerns 
        surrounding the placement of over 2,000 people seven stories 
        under the ground at the nation's most significant terrorist 
        target. The memorial and museum have been built under the fire 
        and building code immunities enjoyed by the Port Authority of 
        New York and New Jersey.
  <bullet> Despite the fact that the 9/11 memorial site is the location 
        of the nation's worst attack on American soil since the Civil 
        War--the historical and patriotic nature of the site has been 
        completely erased at street level. The promised single American 
        flag was never even installed in the center of the memorial 
        plaza as the 9/11 family members were assured--and the single 
        remaining aboveground historical object from 9/11, the Koenig 
        Sphere piece of art, has been banned from the site completely.

    If the proposed Congressional bills are to become law, it is 
critical that they first be amended to correct these serious problems. 
The Department of the Interior's National Park Service must be put in 
complete charge of the 9/11 Memorial & Museum by disbanding the entire 
existing ``National September 11 Memorial & Museum at the World Trade 
Center Foundation.'' The National Park Service must also review and 
reduce the operating budget, conduct a complete safety and security 
assessment, review and redesign the victims photographs as an eye level 
display on an upper floor of the museum, and relocate the terrorists to 
a computer kiosk in the basement where they belong. Most importantly, 
remove the unidentified human remains from the basement of the museum 
to a respectful, aboveground repository akin to the Tomb of the Unknown 
Soldier as the 9/11 family members were assured nearly a decade ago. 
People all across this country believe in honor and respect as well as 
fiscal responsibility. Shouldn't these same abiding ideals extend to 
the 9/11 Memorial and Museum as well?
           attachment 2.--concerns over 9/11 memorial funding
                                          Monday, October 17, 2011.
BY SHAWN BOBURG, STAFF WRITER.
The Record

    The 9/11 Memorial in lower Manhattan was built mostly with private 
donations. But the non-profit that runs the memorial says tax dollars 
are needed to maintain it.
    The debate over proposed federal legislation that would provide the 
memorial's private foundation with $20 million in federal money each 
year, or about one-third of its operating budget, begins this week with 
hearings in Washington.
    Proponents say the federal money is needed to ensure the site of a 
national tragedy does not fall into disrepair decades from now, when 
private fund raising will get more difficult. The non-profit wants to 
maintain full control over the operations of the memorial and museum.
    But critics, including some 9/11 victims' family members, equate 
the legislation to a ``bailout'' of the private non-profit and are 
calling for the National Park Service to run the memorial if federal 
money is contributed. They say that would bring more transparency and 
spending oversight.
    ``To have a bailout with no strings attached is not responsible and 
not what the public wants,'' said Sally Regenhard of the 9/11 Parents & 
Families of Firefighters and WTC Victims, who lost her firefighter son.
    The federal government's national park agency runs several other 
large memorials--the World War II Valor in the Pacific National 
Monument at Pearl Harbor, which draws nearly 1.5 million visitors a 
year, and the Flight 93 National Memorial near Shanksville, Pa. It also 
operates the Statue of Liberty.
    Officials at the 9/11 Memorial envision an arrangement more akin to 
the U.S. Holocaust Museum in Washington, D.C., a public-private 
partnership that relies heavily on federal money. The federal 
government supplies about 56 percent of the Holocaust Museum's $90 
million budget. But it also has oversight. The museum is controlled by 
a panel whose members are appointed by the president, its financial 
books are open to the public and its staff includes federal employees 
whose salaries are set by pay scales.
    Joe Daniels, the president of the 9/11 Memorial Foundation, 
acknowledged that the arrangement would be unique.
    ``I think it's groundbreaking legislation in the sense that it 
recognizes the federal government has a role here,'' he said. The 
difference between the 9/11 Memorial and the Holocaust Museum, he said, 
is that the museum in Washington, D.C., was created by the federal 
government, whereas the memorial ``exists already.''
    The 9/11 Memorial is run by the National September 11 Memorial and 
Museum at the World Trade Center Foundation, a tax-exempt organization. 
New York City Mayor Michael Bloomberg heads its board of directors. The 
actual land the memorial is built on is owned by the Port Authority of 
New York and New Jersey.
                           museum will charge
    About $400 million of the $650 million used to construct the 
memorial and museum came from private donations, the rest from the 
federal government, Daniels said.
    The memorial, an 8-acre plaza with two large reflecting pools in 
the footprints of the original towers, opened last month on the 10th 
anniversary of the attacks. Admission is free. The museum, which is 
being built under the memorial, will open next year and visitors will 
be charged a fee.
    A Senate committee will hold a hearing Wednesday on the proposed 
legislation, filed by Hawaii's Daniel K. Inouye, who heads the 
chamber's powerful Appropriations Committee.
    Regenhard and a small group of vocal family members have been 
sending letters to legislators, arguing the plan would tie a 
``permanent albatross around the neck of the American taxpayer'' if 
operations continue under the current management. Regenhard has 
criticized the foundation in the past for a lack of transparency and 
for not seeking input from family members--claims denied by memorial 
officials.
    The group of family members also says the salaries of the non-
profit's executives are excessive. Four received total compensation of 
more than $300,000 in 2009--including Daniels, who was paid $371,000--
and four more earned more than $200,000, according to tax records.
    Memorial officials point out that the Holocaust Museum director's 
base pay is around $450,000 and the president of the federally funded 
Smithsonian Institution makes more than $520,000.
    Federal employees who run the nation's largest parks and memorials 
make a fraction of that.
    Salaries for directors of the National Park Service's two large 
facilities in the New York area--the Statue of Liberty and the Gateway 
National Recreation Area--range from $128,000 to $155,000 depending on 
years on the job, according to the park service.
    Daniels said the equivalent of 300 full-time employees work at the 
memorial and he said the $60 million budget was lean given the 
estimated 5 million visitors expected each year. The museum is expected 
to draw another 2.5 million people, he said.
    ``We have proven not only to the city and the country, but to the 
world, that we're running the memorial well,'' he said.
    Virginia Bauer, who sits on the memorial foundation's board of 
directors and lost her husband on 9/11, agreed and called federal 
assistance ``essential.''
    ``It was an attack on our country and considering the economic 
climate, we've done a great job of getting donations from individuals 
and private organizations,'' she said. ``We've been very prudent.''
    She said the memorial would not survive on fund raising alone in 
the coming decades.
    ``People say they'll never forget, but things change,'' she said. 
``It's human nature.''
    A provision in the proposed bill would also allow the federal 
government to take ownership of the memorial, but an Inouye aide said 
the $20 million in federal money was not contingent on a transfer in 
ownership. The Port Authority, the governors of New York and New 
Jersey, and the New York City mayor would have to approve the transfer 
to the secretary of the interior, who oversees the National Park 
Service.
    ``I don't foresee that,'' Daniels said of the ownership transfer. 
``It's an extra safety net that says if there are some circumstances, 
if we are unable to maintain this site, the land would transfer and 
trigger the federal government's help.''
                           call for controls
    Critics like Regenhard say that could mean that, decades from now, 
the federal government might be asked to pay for costly repairs if the 
private foundation runs out of money. She and others want stronger 
financial controls now.
    ``This legislation is in its infancy and many of the details of how 
the federal presence will be established and managed are subject to 
ongoing discussions,'' said Peter Boylan, a spokesman for Inouye. He 
said the final bill will address ``the concerns of all stakeholders 
while ensuring that this lasting tribute to the victims of 9/11 is 
adequately funded and maintained.''
    Find this article at: http://www.northjersey.com/news/business/
131964888_Concerns_over_9_11_Memorial_funding.html?page=all
                                 ______
                                 
 Statement of Albert and Sally Regenhard, New York City, NY, on S. 1537
    Many 9/11 families have grave concerns regarding the current 
version of this plan--they do not feel the federal government should 
pay for an enormously expensive memorial and museum in which the 
federal government--as well as the families of the victims--had 
virtually no role in the $700 million design and planning. The majority 
of families who tried to become involved in the process of selecting a 
suitable memorial design--overwhelmingly rejected the current design--
yet their wishes were disregarded. Taking ownership of the memorial & 
museum and annually funding a large portion of its operating costs--
with no strings attached - does not have the checks and balances of 
fiscal responsibility that is so important not only to 9/11 families, 
but to the future of our beloved country.
    If any payout is given to this Memorial, I feel it is time for the 
highly respected and experienced stewardship of the National Parks 
Service to be mandated. It is a matter of deep concern that the WTC 
Memorial site is the only major 9/11 memorial that is not run with the 
full faith and stewardship of the US government. The Shanksville, PA 
memorial , in partnership with the families of the victims, was 
conceived, built, and is operated by the National Parks Service. The 
Pentagon Memorial , acting in concert with the families, is under the 
guidance and expertise of the Department of Defense. Yet the WTC 9/11 
Memorial is being run by a private, non-profit corporation, which 
reports to the Mayor of New York and has excluded the vast majority of 
the families in the planning & design of the Memorial and future museum 
at Ground Zero.
    One of the greatest examples of why a private corporation should 
not have free reign over such an historically important site--to the 
exclusion of family input and consultation--is the sad and unpatriotic 
fact that on 9/11/11--after ten years of planning and hundreds of 
millions of dollars spent--there was not even one solitary on-site 
American Flag on the entire eight acre site of the 9/11Memorial ! 
Compare that to the magnificent, patriotic and multi American flag 
Memorial at Pearl Harbor ! Can you imagine an American Memorial of this 
importance without a flag? That is only one example of many re''.hy a 
private corporation should not be running the 9/11 Memorial at Ground 
Zero, and why oversight of the federal government is sorely needed.
    I would like to ask the National Parks subcommittee--what are the 
guidelines for permitting the term ``National Memorial'' to be used--
when they have nothing to do with it? Why is the name: ``The National 
September 11th Memorial And Musuem'' permitted to be used when it gives 
the erroneous impression to the public that it is somehow connected to 
the federal government's Park Service?
    Finally, if funding is given to the 9/11 Memorial, it is imperative 
that it should be done with the comprehensive oversight of the federal 
government. The greatest loss of life on American soil since the Civil 
War, and the implications of this site, which was an attack on 
America--demand the careful stewardship and the full faith and guidance 
of the United States of America. My son, all the other US veterans who 
perished there, and the nearly 3,000 people who were murdered for our 
American ideals--deserve nothing less.
    Thank you.
                                 ______
                                 
 Statement of James McCaffrey, LT/FDNY, 9/11 Family member, on S. 1537
    I would like all concerned to be aware that I am strongly opposed 
to the $20 million grant for the 9/11 Memorial/ Museum at Ground Zero 
in New York City. Not only would this be an extreme waste of taxpayer 
dollars in this depressed economy, but it would reward the 
mismanagement and waste that has been all too prevalent at that site 
since re-development began.
    If officials cannot operate this MM on what is already an obscenely 
bloated budget, throwing more good money after bad certainly will not 
cause them to suddenly become fiscally responsible. A more logical 
decision would be to grant oversight to The National Parks Service for 
what many have called ``America's Memorial''. Allowing complete and 
unsupervised control of budgetary and management decisions to the 9/
11MM Foundation is a recipe for future disaster. Please inform the 
members of the committee to deny this superfluous and misguided course 
of action.
                                 ______
                                 
Statement of Deputy Chief Jim Riches, FDNY, Father of 9/11 Firefighter 
                   Jimmy Riches, Engine 4, on S. 1537
    As the father of fallen firefighter Jimmy Riches ,Engine 4 FDNY 9/
11/01, I am deeply concerned about Senate bill S1537, The National 9/11 
Memorial and Museum Act of 2011. The 9/11 national Memorial and Museum 
is a private, non -Profit organization, which has treated the museum as 
a revenue generating tourist attraction , rather than as a place of 
reverence, respect and remembrance. It is 95% museum and 5% Memorial. 
We have a National 9/11 M and M that sanctioned and sponsored the 
marketing of bottles of ''./11 WINE'' to raise funds. How disrespectful 
is that!!
    Joe Daniels , as President of National 9/11 M and M has seen his 
salary balloon to close to $400,000.00 The entire staff's salaries are 
far too generous, close to 8 million dollars. The USA is in dire 
financial straits and the economy is reeling with over 14 million 
Americans unemployed and millions more UNDER-employed, but yet the 
National 9/11 M and M has a severely bloated $60 million dollar ANNUAL 
budget. Can't anyone show a little restraint? Some people have NO 
shame.
    My group, Parents and Families of 9/11 Firefighters, have had some 
very serious issues with the National 9/11 M and M. Both the civilian 
and first responder families asked to have ranks of first responders 
and ages of all on the Memorial wall near the waterfalls. Who was in 
charge and who is in charge now? Was it Mayor Bloomberg,Gov Cuomo of 
NY, Gov Christie of NJ ,Joe Daniels of 9/11 M and M , or the Port 
Authority of NY & NJ?. No one knows. Mayor Bloomberg denied our 
request, even though we don't know if he was in charge. That is one 
reason we need the National Parks Service to assume total control and 
run the National 9/11 Memorial and Museum with the great expertise that 
it presently does at many American memorials.
    Our group also met with Joe Daniels and staff when we discovered in 
2009 that they intended to place over 9,000 unidentified human remains 
of 9/11 victims 70 feet (seven stories) below grade in the 9/11 Museum. 
In 2003, we were promised that remains would be returned to WTC, in a 
memorial -akin to the Tomb of the Unknowns--separate and distinct from 
the museum and any visitor's center. We requested that a letter 
informing the families of this placement of remains at the bottom of 
the Museum, be sent out seeking input of the 9/11 families.. They 
refused. We went to court and this week,because of the Judge's ruling, 
they are informing the families via letter, but there will be no input 
allowed from 9/11 families whose loved remains will be 70 feet below 
grade level. In order to visit their loved ones, families will have to 
pass a 9/11 Gift shop, selling all things 9/11, and thousands of 
tourists, in order to pay their respects. Shanksville and Pentagon 
families don't have this injustice and were consulted with, and treated 
with great respect by National Parks Service and Dept. of Defense.
    The National 9/11 M and M , is a private, NON-PROFIT organization 
with its outrageous salaries and should not be in charge. They want $20 
million dollars from the federal government annually, with no strings 
attached, where the federal government and National Parks Service is 
responsible for the project , but Joe Daniels and company will continue 
to draw huge six figure salaries. Let them draw salaries equal to 
National Parks service museum employees. The American taxpayer 
shouldn't bear the burden of the National 9/11 Memorial and Museum's 
fiscal irresponsibility.
    The National 9/11 M and M shouldn't be handled by numerous future 
mayors, governors or 9//11 M and M presidents. It should be operated 
and managed by National Parks Service who have the experience and full 
faith and confidence of the American public. They professionally and 
beautifully manage many great American memorials throughout the USA. If 
the $20 million dollars is given to the National 9/11 Memorial and 
Museum, the 9/11 Parents and Families of Firefighters hope that the 
National Parks Service takes over the full operation and management of 
the National 9/11 Memorial and Museum.
                                 ______
                                 
            Statement of Michael Burke, Bronx, NY on S. 1537
    My name is Michael Burke. On 9/11 my brother FDNY Capt. William F. 
Burke, Jr., Eng. Co. 21 gave his life. My brother's rig will be part of 
the 9/11 museum at the WTC.
    I support the federal bill to provide $20 million per year ot 
support the ``National September 11 Memorial and Museum at the World 
Trade Center.''
    With federal oversight.
    It is impossible that the memorial foundation can possibly take 
federal monies without accountability to the people. As of right now 
this is not so. They respond to the vested interests of a handful, 
despite their claims to the contrary.
    I urge the Senate that federal oversight must be conditional to any 
grant of federal funds to the memorial.
    Thank you.
                                 ______
                                 
 Statement of Kevin F. F. Quigley, Chairman, Board of Trustees, Peace 
                    Corps Commemorative, on S. 1421
    My name is Kevin Quigley, and as Chairman of the Peace Corps 
Commemorative Foundation (PCCF), I am pleased to submit this statement 
in support of S.1421. I want to begin by thanking Chairman Udall and 
Senator Portman for introducing this bill. PCCF is a 501(c)(3) 
nonprofit organization that was created to conceptualize and develop a 
commemorative (the ``Commemorative'') here in the nation's capital 
honoring the founding of the Peace Corps and the values it represents. 
I am submitting this on behalf of my fellow PCCF board members Bonnie 
S. Gottlieb, a lawyer and commercial real estate trade association 
executive, and Roger K. Lewis, a practicing architect, University of 
Maryland professor emeritus of architecture, and author since 1984 of 
The Washington Post column, ``Shaping the City.'' Like Bonnie and 
Roger, I am a Returned Peace Corps Volunteer (RPCV).
    I am also the President of the National Peace Corps Association 
(NPCA), the nation's leading 501(c)(3) nonprofit organization 
supporting RPCVs and the Peace Corps community through networking and 
mentoring to help guide former Volunteers through their continued 
service back home. It is a long-standing advocate for the values of 
international service to promote peace and friendship. The NPCA Board 
and the Peace Corps community enthusiastically support S.1421 and urge 
the Congress to provide the authority for this Commemorative during 
this 50th anniversary year of the Peace Corps.
    This bi-partisan bill authorizes commemoration of an historic 
event, the establishment of the Peace Corps in 1961, as well as the 
fundamental American ideals of peace and friendship, its founding 
represents. Paramount among these ideals are humanitarian service 
motivated by compassion; belief in the right of all to pursue life, 
liberty and opportunity; commitment to help eliminate barriers of 
poverty, ignorance and disease; and an unwavering optimism about 
building a better world for all humankind.
    This Commemorative will NOT be a memorial to the Peace Corps as a 
federal agency or to Peace Corps administrative officials and Peace 
Corps management past, present and future. It will NOT be a memorial to 
Peace Corps programs or volunteers past, present and future. It will 
NOT, in fact, be a memorial to the ``mission'' of the Peace Corps, as 
stated in Section I(a) of the bill, and we would like to work with the 
Committee to amend that section to accurately reflect the intent of the 
Commemorative in this bill. Rather this modest Commemorative, to be 
funded entirely by private donations, will honor the Peace Corps' 
inspired creation half a century ago and the enduring American ideals 
and values its historic creation embodied.
    My fellow board member, Roger Lewis, is an authority on 
commemoratives, which helped shaped our plans for the Commemorative. In 
1986, Roger provided expert testimony in support of the Commemorative 
Works Act (CWA), the law governing all memorials built on federal land 
in Washington, DC. As this Committee knows well, the CWA states that a 
commemorative work is intended to ``perpetuate in a permanent manner 
the memory of an event or other significant element of American 
history.'' The CWA further states that ``commemorating an event may not 
be authorized until after the 25th anniversary of the event.'' Finally, 
under the CWA, a commemorative work near Washington's monumental core 
must be of ``preeminent historical and lasting significance to the 
United States.''
    The proposed Commemorative meets all CWA standards, as evidenced by 
the unanimous approval of H.R. 4195, a bill very similar version to 
S.1421, which was approved by the House of Representatives in the last 
Congress. A similar bill, H.R. 854, is currently under consideration in 
the House. It now has 147 cosponsors. Last year and again this year in 
the House of Representatives, The National Capital Memorial Advisory 
Commission (NCMAC) testified endorsing this proposed Commemorative.
                        why this commemorative?
    Establishment of the Peace Corps in 1961 is an ``event'' that 
occurred more than 25 years ago. It is a unique and ``significant 
element of American history'' of ``preeminent historical and lasting 
significance to the United States.'' Three of the nation's most eminent 
historians--Doris Kearns Goodwin, Elizabeth Cobbs Hoffman and David M. 
Kennedy--have eloquently affirmed that founding of the Peace Corps in 
1961 is a seminal event of lasting significance in American history. 
(Their statements endorsing this Commemorative are included at the end 
of this statement).
    Establishment of the Peace Corps occurred at a pivotal moment 
nationally and internationally. The world was engaged in a Cold War. 
Cultural, ideological and economic divisions between America and many 
independent, post-colonial nations of the Third World were deepening. 
Lack of mutual understanding between Americans and people of other 
countries was a serious barrier to world peace and prosperity.
    The Peace Corps concept, while entailing risks, was an 
unprecedented opportunity to break down barriers and profoundly change 
perceptions of the United States by expressing America's true character 
and motivation. It marked a major turning point in American foreign 
policy and history, and in particular how our country engaged with the 
rest of the world. Embarking on a new path, the United States directly 
harnessed the power of American ideals and values by sending its own 
citizens to help meet the needs of people in developing countries 
through nonpolitical, nonmilitary volunteer service abroad.
    Despite profound geopolitical changes in the world since 1961, the 
original principles on which the Peace Corps was founded have never 
changed and will never change. That is because they are timeless 
American principles. And the very term ``Peace Corps'' has become 
iconic, an enduring symbol of American outreach and humanitarianism 
recognized and understood throughout the world. Some 20 other countries 
have created Peace Corps-type programs reflecting the power of this 
icon.
    Many memorials in Washington honor events and individuals whose 
valor, vision and sacrifice embody the nation's identity, history and 
experience, especially during war. Yet these inspiring works give an 
incomplete picture of America's ideals, values and role in the world. 
By taking its place near these memorials, this Commemorative will help 
complete that picture, adding a missing chapter--an essential element--
in the evolving American story for millions, from home and abroad, who 
annually visit the nation's capital.
                    why enact this legislation now?
    Because 2011 is the 50th anniversary of the Peace Corps, Senate 
passage of S.1421 during the current Congressional session would be 
especially appropriate. It would allow the PCCF to embark on the 17 
remaining steps of the rigorous 24-step memorial-building process, 
which can proceed only after S.1421 is passed by Congress and signed 
into law by the President.
    Another reason to authorize this Commemorative during this 
Congressional session is to remind American citizens and the rest of 
the world of our country's sustained commitment, as a matter of 
national policy carried out through the service of individual 
Americans, to make the world a better place. Because today's world is 
increasingly troubled by poverty, conflict and misunderstanding between 
and among nations, the need for America to enunciate and augment its 
positive, people-to-people outreach is greater than ever. Promoting 
intercultural understanding and improving the lives of others through 
international service is part of the enduring values of the Peace Corps 
and of American history. Thus enactment of S.1421, in honoring the 
ideals and values inherent in establishment of the Peace Corps in 1961, 
can make a tangible contribution to enhancing America's global image.
                 commemorative's size, scope, location
    The Commemorative proposed by the PCCF will be modest in size and 
cost. Financed entirely by private sector charitable contributions, it 
will require no federal funds for design, construction or maintenance. 
As requested by the National Park Service, any excess funds will be 
turned over to the National Park Foundation. The PCCF will seek a small 
site near--but not on--the National Mall. No buildings, grandiose 
structures, heroic sculptures or elaborate fountains will be erected. 
Rather the Commemorative will be an intimate, restful, environmentally 
sustainable place--a kind of urban garden--fostering reflection and 
contemplation on this significant element in American history.
    When authorized, the PCCF will seek a small, little used yet 
visible site-less than half an acre-in Area I of the nation's capital. 
Area I encompasses federal land beyond but not far from the National 
Mall. To be located in Area I, a commemorative work must be of 
``preeminent historical and lasting significance to the United 
States,'' a standard which the Commemorative will meet.
                          other considerations
    Some have observed that, by commemorating ideals along with a 
historic event, this Commemorative would be unprecedented. But all 
memorials authorized under the CWA are unique and unprecedented in what 
they commemorate and symbolize, and they frequently commemorate ideals. 
For example, the Vietnam memorial does not honor an unsuccessful war, 
but rather honors both the Americans who served and sacrificed their 
lives in that war, and the American ideals and values-patriotism, 
loyalty, courage, valor-symbolized by that service and sacrifice. 
Congress has set other precedents by approving commemoratives to 
``elements'' that are neither events nor figures. Two such 
commemoratives are the National Peace Garden, authorized by Congress in 
1987 but never completed, and the memorial to Japanese-American 
Patriotism in World War II, authorized in 1992 and built in 2000. These 
and other memorials do not set unwanted precedents, and they all 
represent and honor American ideals and values. In a similar manner, 
this Commemorative will honor an historic event as well as fundamental 
American ideals and values mentioned earlier in this statement.
    Some have also wondered if this Commemorative might motivate 
unwanted commemorative proposals from federal agencies. Any 
commemorative authorized by Congress under the CWA may potentially 
encourage governmental agencies, NGOs or other groups to propose 
similar memorials. Yet every commemorative proposed for authorization 
must be judged on its own merits by Congress according to CWA 
standards, as interpreted by Congress, and with advice from the 
National Capital Memorial Advisory Commission. Applying the CWA 
standards, Congress and the regulatory agencies will continue to 
diligently make their determinations and eliminate unjustifiable 
commemorative proposals.
    A few have asked if the Peace Corps and the ideals and values upon 
which it was founded are indistinguishable from other volunteer or 
international assistance organizations-for example, CARE, VISTA, 
American Friends Service, AmeriCorps, USAID-and the ideals they 
represent. Again, this Commemorative does not commemorate an 
organization, but rather a significant historic event inspired by 
ideals and values that transcend NGO volunteerism, public service or 
diverse forms of technical and economic assistance. Equally important, 
establishment of the Peace Corps in 1961 is a preeminent historic event 
without peer. There are no comparable events, organizations or 
initiatives in American history. Founding of the Peace Corps was a 
manifestation of an American idea that today is understood and 
recognized worldwide as the ultimate symbol of humanitarian service in 
the cause of human development, international understanding and peace. 
There being no better time than now for Congress to authorize this 
Commemorative, so we respectfully urge the Subcommittee to recommend 
passage of S.1421. Thank you very much for your interest and serious 
consideration.
Brief Statements from Eminent Historians Endorsing the Peace Corps 
        Commemorative
    At the apex of American wealth and power during the Cold War, 
concerned politicians of both parties called for government to define 
what the nation stood for, not just what it stood against, in the 
``American Century.'' The establishment of the Peace Corps marked a 
critical moment when, for the first time, the U.S. government appealed 
to citizens to serve their country in the cause of international 
development and peace. The Peace Corps stretched the capacity of the 
nation to accept that others' interests have a place in foreign policy, 
even if a small one. It challenged cynicism as naive and allowed 
Americans to give practical expression to the finest ideals of the 
Declaration of Independence. In doing so, it demonstrated to the world 
and to Americans alike that self interest and service to others are not 
mutually exclusive. The Peace Corps gave expression to a fundamental 
American ideal, the idea that the power to do good is not inconsistent 
with geopolitical power even in the most difficult times. What gave 
this message its unusual potency in 1961 was that President Kennedy and 
the Congress did not create the Peace Corps alone. It grew out of 
popular demand. Called into being at the behest of citizens from around 
the nation, the Peace Corps enshrined the hope, going back to the 
nation's founding, that ordinary citizens, working alongside others, 
and motivated by the American values of voluntarism, personal 
responsibility, civic cooperation, and international respect for the 
dignity of human life, could help to create a better future. It 
captured the imagination of the world.
                                       --Elizabeth Cobbs Hoffman\1\
---------------------------------------------------------------------------
    \1\ Elizabeth Cobbs Hoffman is the Dwight Stanford Professor of 
American Foreign Relations at San Diego State University and the author 
of All You Need is Love: The Peace Corps and the Spirit of the 1960s 
(Harvard University Press).
---------------------------------------------------------------------------
    In all the impressive array of American international initiatives 
in the post-war world--including the United Nations, the International 
Monetary Fund, the World Bank, NATO, and the Marshall Plan--few if any 
better expressed Churchill's idea of America's responsibilities than 
the Peace Corps. And none offered a comparable opportunity for ordinary 
Americans to contribute to their nation's relations with the rest of 
the world. The Peace Corps was a unique product of a unique moment in 
time, when American power was infused with idealism and purpose, and 
American foreign policy was guided by citizen engagement and citizen 
participation. The Peace Corps materially benefitted countless peoples 
in developing countries. Less measurably, but no less importantly, 
Peace Corps volunteers carried abroad--say rather, lived abroad--some 
of the republic's highest and best aspirations for itself and for ``all 
men in all lands'' as well. And they brought home with them some 
invaluable gifts, too--like a heightened perception of what America 
looks like through the eyes of others, a deepened sense of membership 
in the global family of man, and a renewed respect for the values and 
institutions that have long made America itself so favored among 
nations.
                                              --David M. Kennedy\2\
---------------------------------------------------------------------------
    \2\ David M. Kennedy is the Donald J. McLachlan Professor of 
History, Emeritus, at Stanford University. He is the author, among 
other works, of Freedom From Fear: The American People in Depression 
and War, 1929-1945, which was awarded the 2000 Pulitzer Prize for 
History.
---------------------------------------------------------------------------
    Since 1961, despite changes in political mood and economic 
conditions, despite changes in numbers of volunteers serving and 
countries served, the Peace Corps mission and meaning have remained 
immutable. Establishment of the Peace Corps nearly a half century ago 
has positively affected millions of people in Africa, Asia, the western 
Pacific, Latin America and Europe. But it has achieved more. It has 
produced an enduring American legacy of service in the cause of peace a 
timeless symbol of some of America's most honorable ideals and 
aspirations.
                                          --Doris Kearns Goodwin\3\
---------------------------------------------------------------------------
    \3\ Doris Kearns Goodwin is a Pulitzer Prize winning historian. 
Among her books are No Ordinary Time, Wait Till Next Year, The 
Fitzgeralds and the Kennedys, and Lyndon Johnson. Her most recent book 
is Team of Rivals: The Political Genius of Abraham Lincoln.
---------------------------------------------------------------------------
                                 ______
                                 
                          City of Hampton Virginia,
                                            Council Office,
                                     Hampton, VA, October 19, 2011.
Hon. Mark Udall,
Chairman, National Parks Subcommittee.
Hon. Rand Paul,
Ranking Member, National Parks Subcommittee, Senate Energy and Natural 
        Resources Committee, 304 Dirksen Senate Office Building, 
        Washington, DC.
    Dear Mr. Udall and Mr. Paul: On behalf of the more than 145,000 
citizens of Hampton, Virginia, I have the high honor and privilege to 
submit this letter urging the United States Congress to pass 
legislation enacting the establishment of a National Park Service Unit 
at Fort Monroe in the City of Hampton. As Mayor of the City of Hampton, 
I can assure you that establishing a National Park Service Unit at Fort 
Monroe has the full support of our City Council and is one of our 
cities' top priorities.
    The City of Hampton has a long-standing appreciation and respect 
for Fort Monroe's history, and we know that preserving and interpreting 
that history to the American public is of national importance. It is 
this history, which dates back to the founding of our country and 
includes General Benjamin Butler's contraband slave declaration which 
transformed the Civil War into a war for freedom, that is the reason 
why this place should be a National Park. Further, the site's beauty 
and its proximity to the Chesapeake Bay and saltwater marshlands create 
unparalleled opportunities for Hampton Roads' 1.7 million residents, as 
well as visitors from across this country, to enjoy and become active 
in Great American Outdoors, offers further justification.
    Today, however, I want to discuss another reason that we support 
the creation of a National Park Service Unit at Fort Monroe: It will 
bring significant economic revitalization to our city, boosting tourism 
and creating spinoff jobs in the private section.
    As a result of the 2005 Base Realignment and Closure (BRAC) 
decision to cease the United States Army mission at Fort Monroe and 
close the installation, Hampton's economy has declined by 7 percent. We 
have seen a loss of 5,524 jobs and a decline in population of 3,404. As 
we continue to weather extremely challenging economic conditions, the 
closure of Fort Monroe compounds the difficulties in working to provide 
core services to our citizens.
    Since the BRAC announcement, many of our citizens--as well as 
national organizations--rallied and began the process of working 
together to establish a National Park Service Unit at Fort Monroe. For 
example, the local Citizens for a National Park at Fort Monroe group 
has engaged local, state and federal officials to garner support. 
Grassroots efforts like these have brought us to this important 
juncture, where Senator Mark Warner and Senator Jim Webb, along with 
Representative Scott Rigell, have introduced legislation that create a 
National Park Service Unit at Fort Monroe. Along our journey, we have 
had unwavering bipartisan support from citizens in Hampton, Hampton 
Roads, and across the country, as well as at all levels of local, state 
and federal government.
    The goal of establishing a National Park Service Unit at Fort 
Monroe has built unprecedented support in our city and unified citizens 
of all ages, race and walks of life from across Hampton Roads and the 
Commonwealth of Virginia. At public hearings held by the National Park 
Service, more than 1,000 citizens lined up to speak unanimously in 
support of creating a National Park Service Unit at Fort Monroe. Many 
traveled long distances from other states across America to join in 
uniting with others in this important activity. Thousands more have 
sent in emails and letters.
    The key issue in this country is creating jobs and revitalizing the 
economy, and we know that establishing a National Park Service Unit at 
Fort Monroe is a key step in accomplishing that mission. A recent study 
released on the Historic Triangle of Jamestown, Colonial Williamsburg, 
and Yorktown here in the Commonwealth of Virginia indicated that over 
363,000 visitors spent an estimated $327 million, which supported 1,184 
local private sector jobs as well as an 81-member National Park Service 
staff. Because of Fort Monroe's proximity to the historic triangle, 
many believe that creating a National Park Service Unit will 
significantly add to the numbers of tourists visiting the region, thus 
bringing more spending and jobs.
    In addition to creating jobs, we also know it is critical in a BRAC 
to bring back economic vitality through the highest and best reuse of 
the properties being vacated. The combination of establishing a 
National Park Service Unit at Fort Monroe with building rehabilitation 
will also generate new jobs and stimulate the economy. Dollar for 
dollar, historic preservation is one of the highest job-generating 
economic development options available. For example, we know that 3.4 
more jobs are created for each $1 million spent on rehabilitation than 
on new construction. Further, each $1 million spent on rehabilitation 
adds $53,500 more to household income in Virginia than the equivalent 
amount spent on new construction. As a National Historic Landmark, Fort 
Monroe must be sustained and maintained to ensure it remains a vibrant 
part of America's history. Working together in partnership, a National 
Park presence will boost the state's effort to attract educational and 
high-tech resources to create a campus on the historic base to ensure 
its future.
    Throughout America's history, we have been faced with many 
challenges and opportunities that continue to set a course for future 
generations. Establishment of a National Park Service Unit at Fort 
Monroe in Hampton, Virginia, will ensure all Americans have the 
opportunity to visit and learn about the many untold stories that 
played a critical part in shaping our nation and the importance of 
preserving our past so future generations can build a brighter future. 
It will ensure that a rare, unspoiled beach remain accessible as an 
active park within an urban area. And it will spur the economic 
vitality that will grow jobs and investment for Hampton and the 
surrounding areas.
            Sincerely,
                                         Molly Joseph Ward,
                                                             Mayor.
                                 ______
                                 
          National Parks Conservation Association,
                                        Government Affairs,
                                  Washington, DC, October 18, 2011.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy & Natural Resources, 304 Dirksen 
        Senate Building, Washington, DC.
    Dear Chairman Bingaman: On behalf of our more than 600,000 members 
and supporters, I want to express the very strong support of the 
National Parks Conservation Association for S. 1303, a bill authorizing 
the Secretary of the Interior to establish Fort Monroe National 
Historical Park in the Commonwealth of Virginia. Passage of this bill 
would add to our National Park System a place of both great historic 
significance and natural beauty, providing the public access to unique 
cultural and natural resources. NPCA commends Senators Webb and Warner 
for their leadership on this matter and we hope that Congress will move 
to pass this important piece of legislation in the timeliest manner 
possible.
    Located at the mouth of the Chesapeake Bay at the point where the 
James River and the Atlantic Ocean converge, Fort Monroe and the Old 
Point Comfort Peninsula have played consistently seminal roles in the 
history and development of this nation. In the early 17th century, 
after years of habitation by American Indians, Captain John Smith 
explored the Old Point Comfort Peninsula and described it as ``a little 
isle fit for a castle.'' Appreciating the peninsula's strategic 
location, the English built a series of defensive posts there beginning 
with Fort Algernourne (1609-1612), Point Comfort Fort (1632-1667), and 
Fort George (1727-1749).
    It was during this period that the first documented Africans to 
land in Virginia arrived on the Old Point Comfort peninsula as enslaved 
people (1619). ``Twenty and odd Africans'' were traded from Dutch to 
English masters for food. Records suggest that among the first Africans 
to live in the region were Anthony, Isabell, and their son William, who 
was likely, the first black child born in the Hampton Roads region.
    After British forces burned the City of Washington in 1814, 
Congress sought to improve the nation's coastal defenses to prevent 
future depredations. Simon Bernard, former Aide de Camp to the Emperor 
Napoleon, was engaged to design the ``star'' fort. When construction 
began in 1819 the work was overseen for a time by a young lieutenant 
named Robert E. Lee. The ``Gibraltar of the Chesapeake'' was completed 
in 1834 at a cost in excess of $1.8 million.
    Fort Monroe served as the staging area and point of departure for 
U.S. troops engaged in the suppression of Nat Turner's rebellion 
(1831), various Indian wars (1832-1836), and the U.S. War with Mexico 
(1846-1848). The epic Battle of Hampton Roads, the first naval 
engagement between two ironclad ships (the U.S.S. Monitor and C.S.S. 
Virginia), took place just off shore of the Old Point Comfort 
Peninsula. An active U.S. military presence has been maintained at Fort 
Monroe from the antebellum period through the modern-era; the Unites 
States Army having officially completed its mission at the fort on 
September 15, 2011.
    Yet the most significant aspect of Fort Monroe's history is related 
to the story of three enslaved black men--Frank Baker, Shephard 
Mallory, and James Townsend. On May 23, 1861, the trio made their way 
to Fort Monroe seeking freedom. Union General Ben Butler refused to 
return the men to their Confederate owner instead declaring them to be 
``contraband of war.'' Upon hearing that ``Freedom's Fortress'' was 
open for business 10,000 more enslaved black men and women followed the 
footsteps of those courageous pathfinders and made their way from 
slavery to freedom at Fort Monroe. In this one location by the 
Chesapeake Bay slavery in Virginia got its start and (242 years later) 
began its long overdue demise.
    In addition to its rich historic legacy a Fort Monroe National 
Historical Park would provide public access to natural resources and 
recreational opportunities in a region where both are limited. The Old 
Point Comfort Peninsula contains more than two miles of rare, 
undeveloped Chesapeake shoreline that the establishment of a national 
park would secure in perpetuity from incompatible development. Possible 
recreational opportunities include birding, wildlife trail hiking, 
boating, fishing, swimming, and camping. Both the Captain John Smith 
and Star Spangled Banner National Trails are located along the 
peninsula and would allow visitors an immediate connection to the 
history of our country's early exploration.
    S. 1303 has been carefully crafted over the past several months to 
incorporate a variety of views and priorities from local, state, 
federal, and national agencies, organizations, and stakeholders. As the 
concept of adding Fort Monroe to the National Park System enjoys 
unprecedented consensus and widespread, bi-partisan support, so too 
does S. 1303. The bill introduced by Senators Webb and Warner empowers 
the National Park Service and the Fort Monroe Authority (FMA), the 
entity designated to represent the interests of the Commonwealth of 
Virginia, to act in partnership to protect the natural and cultural 
resources on the Old Point Comfort Peninsula. Companion legislation 
(H.R. 2456) has been introduced in the House by Representative Scott 
Rigell.
    S. 1303 states that preservation and interpretation at a Fort 
Monroe National Historical Park will be maintained at levels that 
conform to the standards set forth by the Secretary of the Interior. 
The bill also allows the FMA to adaptively reuse or compatibly develop 
areas in and around the fort to accommodate new or continuing 
residential, business, or commercial use to generate profits to offset 
the cost of establishing a new park unit. S. 1303 will maintain the 
``integrity of the historic resources and natural and recreational 
resources of the Park'' while allowing for common sense, compatible 
development that will make the site a world-class destination and an 
economic engine that generates jobs and income for Hampton Roads, for 
Virginia, and the nation.
    There is no dispute about the historic significance of Fort Monroe 
and the Old Point Comfort Peninsula. Several hundred citizens warmly 
greeted the Secretary of the Interior Ken Salazar during his visit and 
fact-finding mission to Fort Monroe in June 2011. More than 1,000 
citizens, the vast majority of whom expressed strong support for the 
establishment of a national park unit at Fort Monroe, turned out one 
month later to attend a series of listening sessions hosted by the 
National Park Service. NPCA believes that Fort Monroe's remarkable 
history deserves to be a part of a 21'' century National Park System 
and a source of learning and inspiration for generations to come.
            Sincerely,
                                             Craig D. Obey,
                                                Sr. Vice President.
                                 ______
                                 
       9/11 Parents and Families of Firefighters and WTC Victims
                                                  October 17, 2011.

    Dear Senator Bingaman,
    Chair, Energy & Natural Resources Committee.

    As Chairman of 9/11 Parents & Families of Firefighters and WTC 
Victims, I am writing to you regarding the 9/11 Memorial and Museum and 
its relationship to an October 19th Committee meeting on a proposed 
Congressional bill which is currently on your desk: Senate Bill: 
S.1537: National September 11 Memorial and Museum Act of 2011.
    Many 9/11 families are opposed to this bill--unless one change can 
be made--and this change could have a very positive effect for the 9/11 
Memorial, New York City and indeed for the entire Nation. We, as 9/11 
Families, respectfully request that you make one very important and 
critical change to your Bill--that the National Park Service take over 
the complete management and operation of the 9/11 Memorial.
    Recently, these bills were introduced into the Senate and United 
States House of Representatives to provide an annual $20 million payout 
to the foundation representing the September 11th Memorial and Museum.
    These Congressional bills allow for the Department of the Interior 
(National Park Service) to accept a ``gift'' of the property of the 9/
11 Memorial and Museum in return for the annual stipend, which would 
continue for an unlimited period of time into future decades. In 
addition, the existing foundation (with its incredibly highly paid six-
figure staff) would continue to run the Memorial and Museum, with no 
strings attached, regarding fiscal responsibility.
    Many 9/11 families are opposed to this plan--they do not feel the 
federal government should pay for an enormously expensive memorial and 
museum in which the federal government--as well as the families of the 
victims--had virtually no role in the $700 million design and planning. 
Taking ownership of the memorial & museum and annually funding a large 
portion of its operating costs will be a permanent albatross around the 
neck of the American taxpayer--unless the highly respected and 
experienced stewardship of the National Parks Service can be mandated 
in this Bill.
    Within our group are registered Democrats, Republicans, 
Conservatives, and Right to Life voters who feel it is prudent to 
advocate for the same fiscal responsibility that so many Americans have 
been calling for. We feel it would be wise to oppose any bailout 
without fiscal responsibility. Therefore, We would like to ask you to 
consider not lending support to this Bill unless the National Park 
Service can assume complete stewardship & operation of the 9/11 
Memorial and Museum as they do for numerous other National Memorials 
across this country.
    If this is indeed a ``National Memorial'' which deserves federal 
funding, then it is essential that it be given the honor, respect, 
patriotism and time-honored stewardship of the National Park Service. 
It is also important that those running the 9/11 Memorial and Museum do 
not continue to receive ever increasing salaries on the dime of the 
American taxpayer. I plan to attend your Committee meeting on Oct 17th 
with a few other 9/11 Parents of Firefighters, and I would greatly 
appreciate the opportunity to meet with you prior to the hearing.
    We would like to make a statement to the Committee, but have been 
informed that we cannot speak. Therefore, i respectfully request that 
the following questions be raised at your meeting:

          1. Why is it that the National September 11th Memorial and 
        Museum is asking for such a large annual sum of money for 
        operating expenses even before the complex is completed? Why 
        were the annual operating expenses so significantly 
        underestimated when it was designed?
          2. Why is the National September 11th Memorial and Museum 
        asking the federal government to take ownership of the memorial 
        and museum complex along with providing a large, $20m annual 
        stipend, yet the federal government would have no control over 
        the facility and its operations?
          3. Why can't the National Park Service simply take over the 
        entire ownership and operations as has been done with numerous 
        other memorials throughout the nation? Wouldn't that be a much 
        more cost effective arrangement given the very high salaries 
        currently being paid to the management of the National 
        September 11th MM?

    Thank you for your service to our country.
            Sincerely,
                             Chief Jim Riches, FDNY (ret.),
       Chairman, 9/11 Parents and Families of Firefighters and WTC 
                                                           Victims.
                           Father of FF Jimmy Riches, E4, WTC/9/11.
                               Sally Regenhard, Vice Chair,
         9/11 Parents and Families of Firefighters and WTC Victims,
                  Mother of FF Christian Regenhard, L131, WIC/9/11.
                                   Rosaleen Tallon, Ed. D.,
       Family Liaison, Advocates for a 9/11 Fallen Heroes Memorial,
                     Sister of FF Sean Tallon, Ladder 10, WTC/9/11.
                                    Jim McCaffrey, LT/FDNY,
             Co-chair, Advocates for a 9/11 Fallen Heroes Memorial,
  Bother-in-law of FDNY Battalion Chief Orio Palmer, Batt 7, WTC/9/
                                                                11.
                     Maureen and Al Santora, (DC/FDNY-ret),
         9/11 Parents and Families of Firefighters and WTC Victims.
                    Parents of Christopher Santora, E-54, WTC/9/11.
             Joyce and Russell Mercer and Christine Mercer,
         9/11 Parents and Families of Firefighters and WTC Victims,
               Parents and Sister of Scott Kopytko, L-15, WTC/9/11.
                                             Rosemary Cain,
         9/11 Parents and Families of Firefighters and WTC Victims,
                              Mother of George Cain, L-7, WTC/9/11.
                                 ______
                                 
                Statement of Thomas Johnson, on S. 1537
    There will not be another day in history that will affect me the 
same way as did September 11, 2001. Every single day since, I am 
painfully reminded of the untimely death of our son, Scott. He was 26 
when he was brutally murdered, but even though it is hard to deal with 
the anguish of our loss, we will never forget what a gift it was to 
have him for those 26 years, as our son. He was a generous and caring 
young man who had an insatiable appetite for exploring what the whole 
world had to offer. We all know that many, many people were 'robbed' of 
their loved ones on September 11 and on February 26, 1993 by those 
senseless acts of violence and we must strive to educate any who wish 
to follow in those cruel footsteps that there can be no reward for such 
brutality.
    With faith and work, you find you are able to cope with the loss. 
You do not 'move on,' which is what so many ask about, because moving 
on would imply that you can get over the loss. You cannot--and you do 
not want to--but you can continue to build your life around all your 
experiences, interests, and obligations, perhaps with a slightly 
sharper focus and selectivity resulting from your loss.Working with the 
dedicated and passionate members of the National 9/11 Board of 
Directors has helped me to work on the healing process. I have said, on 
many occasions, that I was fortunate to have been still working as CEO 
of a financial company, and after the numbness began to recede, I 
returned to my responsibilities, which gave me strength and the 
motivation to rebuild our family life without Scott.
    Finding ways to cope has been a challenge, but one of the best 
things about my work with the National 9/11 Memorial and Museum 
Foundation is my association with so many wonderful leaders who are 
determined that good must come out of the horror of 9/11. Some are 
civic leaders who did not experience personal loss while others, like 
me, do the work out of devotion to the family members who are no longer 
with us.
    I have learned over the years how many more people than I had ever 
imagined have suffered grievous loss. A few are unable to go on, but 
most find a way to continue their lives, to be productive and to 
provide comfort to others, even while dealing with their own grief. For 
the other `family members of 9/11' I have had the privilege of getting 
to know, I am very grateful. The diversity of their responses to their 
tragic loss, ranging from anger, to eloquence, to generosity, has given 
me a greater appreciation of the nobility of the human spirit. They and 
all our fellow citizens who have helped on the 9/11 work provide a 
continuing reminder of the precious gift Scott was to us and to the 
world.
    The National September 11 Memorial & Museum, established in 2003, 
is a perfect example of a true public-private partnership. I have from 
the beginning been one of a number of family members of those who 
perished on 9/11 serving on the Board. Today, there are 11 of us family 
members on the Board representing each of the attack sites--the World 
Trade Center, the Pentagon and the crash of Flight 93--just as the 
Memorial itself lists the names of all who were killed at the three 
sites on both dates.
    While the World Trade Center is of course in New York City, the 
Memorial acknowledges that 9/11 was an attack on our entire nation 
and--with citizens lost from more than 90 nations--the world.
    There has been public involvement in this project at all levels 
from the start. The plan for rebuilding was itself shaped by the 
public; thousands participated in open forums and meetings beginning in 
early 2002 and the design competition for the Memorial was the largest 
in the world's history, receiving 5,201 submissions from 49 states and 
63 countries. The federal government, through HUD, stepped up to ensure 
all this could happen, providing funding through the Lower Manhattan 
Development Corporation.
    In 2006, our Foundation, the National September 11 Memorial & 
Museum, assumed responsibility for overseeing the design, working with 
the project's construction manager, the Port Authority of New York and 
New Jersey: a bi-state agency established through an act of Congress in 
1922.
    It was also in 2006 that Mayor Michael Bloomberg became our 
chairman and Joe Daniels became president of our private 501(c)(3), and 
few deserve as much credit as they for making this national tribute a 
reality.
    We have raised $400 million of private funds, made up of almost 
800,000 donations from all 50 states and more than 100 countries. That 
amounts to nearly 60% of our total funds for planning, design, 
construction, exhibitions, and operations through 2012.
    Thousands participated in building this tribute and hundreds more 
now operate the Memorial and welcome visitors every day. I know each 
one of them sees this as more than a job: from the construction workers 
who literally built the Memorial pools and plaza stone by stone, to the 
foundation's Board and staff who have worked with this project's many 
stakeholders--families of those killed, survivors, first responders, 
and others--each step of the way.
    Every aspect of our planning and operations has been to enable all 
of our visitors--be they family members, local residents, Americans 
from all 50 states, or international tourists--to pay their respects at 
a place where tragic loss was suffered and where heroic sacrifices were 
made.
    The pain of 9/11 cannot be erased, and certain images will live on 
in our minds: of the Twin Towers under attack and then falling, of the 
heartbreaking 9-month recovery effort, of what was then described as 
the pit'' that remained. But to have the site transformed today into a 
place of remembrance is something that, as a family member and a Board 
member, I'm extremely proud of.
    We knew that the eyes of the world would be fixed on the World 
Trade Center on the 10th anniversary of 9/11. It was up to us to 
deliver a Memorial that inspires, and as media and press coverage of 
that day showed, our commitment has been fulfilled.
    I believe I can speak for the thousands of family members who have 
visited when I say that the Memorial is as beautiful and as meaningful 
as it could possibly be.
    Many have written letters and emails expressing their gratitude 
that the Memorial is now open. One was from Sally Tartre, the sister of 
James Michael Roux, who was aboard Flight 175. ``Like so many families 
we never recovered anything of his,'' she said. ``Being able to finally 
go where he was killed brought much pain, but also some peace. Thank 
you so much for being so diligent and informative with the families, 
you have done a wonderful job out of something so horrible.'' I would 
add that this sacred place represents for many of us, including my 
family, who did not recover our loved one's remains, their final 
resting place.
    Attached are images* taken on the 10th anniversary of the attacks, 
when the Memorial was dedicated and opened for the family members of 
the victims. This was the first time we were able to touch the names of 
our sons and daughters, now forever inscribed on hallowed ground.
---------------------------------------------------------------------------
    * Images have been retained in subcommittee files.
---------------------------------------------------------------------------
    The following day, the Memorial opened to the public. Already, 
we've welcomed almost 200,000 visitors from across the country and 
around the world. The Memorial is quickly becoming one of the most 
visited sites in our nation--with millions of visitors projected 
annually. In fact, more than 1,000,000 visitor pass reservations have 
already been made from all 50 states and more than 85 foreign 
countries.
    And when our visitors stand beside one another, ringing where the 
Twin Towers once stood before the names inscribed in bronze, they do so 
in the spirit of unity we all remember from the days and months after 
9/11.
    Beyond how far we've already come, we have our sights now on 
another important goal: the opening of the 9/11 Memorial Museum in just 
328 days. The Museum will be the global focal point for preserving the 
history of September 11, 2001.
    It will be a place that recounts the heroism of the more than 400 
first responders who died performing their sworn duties and all the 
others, including our son, who were carrying on the business of America 
by simply doing their jobs. It will commemorate the sacrifices of the 
thousands of men and women who appeared at the site in the aftermath to 
help in every way they could. All these are parts of American history 
that must never be forgotten.
    The Museum spaces at bedrock of the World Trade Center are taking 
shape and already the largest artifacts are in place.
    These items represent the stories behind them, like the story of 
FDNY Captain William F. Burke of Engine 21. After the south tower 
collapsed, he ordered his men to make their way out of the north tower, 
promising them he would meet them back at the rig. His men followed his 
command, but Captain Burke did not meet them as he promised, having 
stayed behind to assist those in need He was the only member of his 
company killed that day and Engine 21 will be featured in the Museum in 
his honor.
    The Memorial is how we fulfill our mission to commemorate the lives 
lost and the Museum will be how we fulfill our equally important 
mission to educate future generations.
    The history of 9/11 is still unfolding and yet many of our nation's 
children and grandchildren are already too young to recall what 
happened first-hand.
    In protecting the World Trade Center and its history, the 
educational value of the Museum can be the greatest investment of all. 
As recollections become more distant, future generations must see the 
human cost of terrorism and must be shown the moral vanity of those who 
attacked not just iconic buildings but the very fabric of our national 
identity.
    I feel it's important that the Board of Directors--so many of us 
with personal connections to 9/11 and having been with this project 
from the start--remain at the helm of this landmark institution.
    The opening of the Memorial marked the start of a new chapter in 
our nation's history, a history that is rooted at the World Trade 
Center. We can't forget that this is a site that has been attacked 
twice and security will always be a primary concern.
    We'll never falter in our commitment to keep our visitors safe, but 
we need federal support in order to balance this commitment with others 
so that a safe experience can also be a meaningful one. As you know, 
historic sites like the Statue of Liberty and Ellis Island have been 
taken on by the Secretary of the Interior and certainly that may be 
fitting at some time in the future.
    At this moment, the Memorial and Museum require both the guiding 
hand of the current Board and the support of our nation's government to 
realize fully the unbreakable promise to honor my son Scott and the 
thousands of others who were killed.
    This is one of the most important things we can do as a nation in 
response to terrorism. We remember individuals taken from their 
families too soon not for how they died, but for how they lived. We 
honor the heroes who made the ultimate sacrifice that day and those who 
continue to keep our country safe. We educate so that lessons learned 
will never be forgotten and so that the incredible compassion that 
emerged in the wake of 9/11 can live on and become its true legacy.
    The National September 11 Memorial & Museum are now the sacred 
heart of New York City, and a place for generations to come to honor 
our nation's core principles. A place where we can show the world our 
unity, our resiliency, and our resolve to preserve freedom in the wake 
of the despicable actions of those who sought to destroy it.
    I thank you for your support of National September 11 Memorial and 
I encourage you to support this legislation.
                                 ______
                                 
  Statement of the National September 11 Memorial & Museum, on S. 1537
    The National September 11 Memorial & Museum (9/11 Memorial) is a 
tribute of remembrance and honor to the nearly 3,000 people killed in 
the terror attacks of September 11, 2001 at the World Trade Center, the 
Pentagon and on flight 93 near Shanksville, Pennsylvania, as well as 
the six people killed in the World Trade Center bombing in February 
1993. The site is located in the footprint of the fallen towers at the 
World Trade Center in New York City. The 9/11 terrorist attacks 
represent the largest loss of life from a foreign attack on American 
soil.
    The 9/11 Memorial was designed to create a public space to remember 
and reflect on the lives lost, to recognize the endurance of those who 
survived, the courage of those who risked their lives to save others, 
and the compassion of all who supported them and our nation. The 
Memorial's mission statement ends: ``May the lives remembered, the 
deeds recognized, and the spirit reawakened be eternal beacons, which 
reaffirm respect for life, strengthen our resolve to preserve freedom, 
and inspire an end to hatred, ignorance, and intolerance.'' In the five 
weeks since its dedication on September 11, 2011, the Memorial has 
welcomed over 250,000 visitors from across the country and around the 
world.
    The 9/11 Memorial Museum's mission is two-fold: to commemorate and 
to educate. The Museum honors the victims of the attacks and tells the 
history of what happened on 9/11, including stories of those who risked 
their lives to save others. It also recounts the aftermath of the 
attacks, providing an authoritative source of this essential part of 
our nation's history. The Museum's exhibits, programming and research 
components will document the history of 9/11 far into the future, 
demonstrating the consequences of terrorism on individual lives and its 
impact on communities at the local, national, and international levels. 
Primary exhibition space for the Museum is located beneath the Memorial 
in the archaeological heart of the World Trade Center, and includes 
access to nationally recognized historic assets of the site, including 
the slurry wall that held back the Hudson River during the attacks, the 
sawed off box columns that outline the footprints of the Twin Towers, 
and the Survivor Staircase that was used by many as a route to safety 
on 9/11. The Museum is expected to open in 2012.
                         history of the project
    The National September 11 Memorial & Museum was established in 2003 
as a private 501(c)(3) tax exempt organization, and began full-fledged 
operations in 2005. The organization is a true public-private 
partnership with an esteemed board of directors that includes 11 
victims' family members, as well as leaders from both the public and 
private sector. While located in New York, the Memorial represents 
those lost at all three attack sites, recognizing these attacks as 
assaults on our entire nation and--with citizens lost from more than 90 
nations--the world.
    The project has involved public and private participation at all 
levels from the start. The plan for rebuilding was itself shaped by the 
public; thousands participated in open forums and meetings beginning in 
early 2002 and the open design competition for the Memorial was the 
largest in the world's history.
    Funding for the Memorial and Museum includes a mix of public and 
private contributions, including approximately 800,000 private 
donations, funding from New York State and the Port Authority of New 
York and New Jersey, and federal support through the Department of 
Housing and Urban Development in conjunction with the Lower Manhattan 
Development Corporation (LMDC).
    In 2006, the 9/11 Memorial assumed responsibility from the LMDC for 
overseeing the design and working with the project's construction 
manager, the Port Authority of New York and New Jersey: a bi-state 
agency established through an act of Congress in 1922. That same year, 
New York Mayor Michael R. Bloomberg became chairman and Joe Daniels 
became president of the 9/11 Memorial. A full list of the Board of 
Directors is included as an appendix.*
---------------------------------------------------------------------------
    * List has been retained in subcommittee files.
---------------------------------------------------------------------------
    To date, the 9/11 Memorial has raised over $400 million privately, 
made up of approximately 800,000 contributions from all 50 states and 
more than 100 countries. That amounts to nearly 60% of the total funds 
needed for planning, design, construction, exhibitions, and operations 
through 2012.
    Thousands participated in building this tribute and hundreds more 
are dedicated to operating the Memorial and welcoming visitors each 
single day. Each one sees this as more than job: from the construction 
workers who literally built the Memorial pools and plaza stone by 
stone, to the Memorial & Museum's Board of Directors and staff who have 
worked with this project's many stakeholders--the families and friends 
of those killed, the survivors, first responders, recovery workers, and 
many others--each step of the way.
    Every aspect of planning and operations has been in service of 
allowing all visitors to the Memorial & Museum--be they family members, 
residents, Americans from all 50 states, or international tourists--to 
pay their respects at a place where tragic loss was suffered and where 
heroic sacrifices were made.
                          the memorial design
    The 9/11 Memorial is located at the site of the former World Trade 
Center complex and occupies approximately half of the 16-acre site. The 
9/11 Memorial features two enormous waterfalls and reflecting pools, 
each about an acre in size, set within the footprints of the original 
Twin Towers. The surrounding plaza is one of the most eco-friendly 
plazas ever constructed. A forest of more than 400 trees surrounds the 
two massive reflecting pools. Its design conveys a spirit of hope and 
renewal, and creates a contemplative space separate from the usual 
sights and sounds of a bustling metropolis.
    An international competition was held in 2003 to select the design 
for the memorial. Over 5,200 design submissions were received from 63 
nations.
    The winning design, by Michael Arad with landscape architect Peter 
Walker, was chosen by an eminent panel comprised of artists, 
architects, community leaders, and a victim's family member. The jury 
panel included:

          Members of the Memorial Design Selection Jury

          Paula Grant Berry, 9/11 Memorial Board Member whose husband 
        died in the 9/11 attacks
          Susan K. Freedman, President of the Public Art Fund
          Vartan Gregorian, President of the Carnegie Corporation of 
        New York
          Patricia Harris, First Deputy Mayor of New York City
          Maya Lin, world-renowned architect of the Vietnam Veterans 
        Memorial in Washington, D.C.
          Michael McKeon, former communications director for Gov. 
        George Pataki of New York
          Julie Menin, Chairperson of Community Board 1 in lower 
        Manhattan
          Enrique Norten, Mexican architect & principal of the design 
        firm TEN Arquitectos
          Martin Puryear, acclaimed American sculptor
          Nancy Rosen, public art pioneer
          Lowery Stokes Sims, Curator of Museum of Arts and Design
          Michael Van Valkenburgh, New York City landscape artist
          James E. Young, professor at the University of Massachusetts

    The following excerpt is from the winning design statement of 9/11 
Memorial architects Michael Arad and Peter Walker:

          This memorial proposes a space that resonates with the 
        feelings of loss and absence that were generated by the 
        destruction of the World Trade Center and the taking of 
        thousands of lives on September 11, 2001 and February 26, 1993. 
        It is located in a field of trees that is interrupted by two 
        large voids containing recessed pools. The pools are set within 
        the footprints of the Twin Towers. A cascade of water that 
        describes the perimeter of each square feeds the pools with a 
        continuous stream. They are large voids, open and visible 
        reminders of the absence.
          The surface of the memorial plaza is punctuated by the linear 
        rhythms of rows of deciduous trees, forming informal clusters, 
        clearings and groves. This surface consists of a composition of 
        stone pavers, plantings and low ground cover. Through its 
        annual cycle of rebirth, the living park extends and deepens 
        the experience of the memorial.
          Surrounding the pools on bronze parapets are the names. The 
        enormity of this space and the multitude of names underscore 
        the vast scope of the destruction. Standing there at the 
        water's edge, looking at a pool of water that is flowing away 
        into an abyss, a visitor to the site can sense that what is 
        beyond this parapet edge is inaccessible.
          The memorial plaza is designed to be a mediating space; it 
        belongs both to the city and to the memorial. Located at street 
        level to allow for its integration into the fabric of the city, 
        the plaza encourages the use of this space by New Yorkers on a 
        daily basis. The memorial grounds will not be isolated from the 
        rest of the city; they will be a living part of it.

    The following excerpt is from the Memorial Jury's January 2004 
statement on selecting the design:

          Of all the designs submitted, we have found that ``Reflecting 
        Absence'' by Michael Arad, in concert with landscape architect 
        Peter Walker, fulfills most eloquently the daunting but 
        absolutely necessary demands of this memorial. In its powerful, 
        yet simple articulation of the footprints of the Twin Towers, 
        ``Reflecting Absence'' has made the voids left by the 
        destruction the primary symbols of our loss. By allowing 
        absence to speak for itself, the designers have made the power 
        of these empty footprints the memorial. At its core, this 
        memorial is anchored deeply in the actual events it 
        commemorates-connecting us to the towers' destruction, and more 
        important, to all the lives lost on that day....
          While the footprints remain empty, however, the surrounding 
        plaza's design has evolved to include beautiful groves of 
        trees, traditional affirmations of life and rebirth. These 
        trees, like memory itself, demand the care and nurturing of 
        those who visit and tend them. They remember life with living 
        forms, and serve as living representations of the destruction 
        and renewal of life in their own annual cycles. The result is a 
        memorial that expresses both the incalculable loss of life and 
        its consoling regeneration.
                        the 9/11 memorial design
    The names of the nearly 3,000 men, women, and children killed in 
the attacks of September 11, 2001 and February 26, 1993 are inscribed 
into bronze panels edging the twin Memorial pools, a powerful reminder 
of the largest loss of life resulting from a foreign attack on American 
soil and the greatest single loss of rescue personnel in American 
history.
    The display of these names is the very heart of the Memorial. The 
design of the names parapet provides a direct relationship between the 
visitor, the names, and the water, allowing for a feeling of quiet 
reverence between the visitor and the Memorial.
    Names are stencil-cut into the parapets, allowing visitors to look 
through the names at the water, and to create paper impressions or 
rubbings of individual names. At night, light shines up through the 
voids created by each letter of a name.
    Swamp white oak trees create a rustling canopy of leaves over the 
plaza. This grove of trees bring green rebirth in the spring, provide 
cooling shade in the summer and show seasonal color in fall. A small 
clearing in the grove, known as the Memorial Glade, designates a space 
for gatherings and special ceremonies.
    With its grove of trees, the Memorial's plaza is an actual green 
roof for the structure housing the 9/11 Memorial Museum, a train 
station and other facilities 70 feet below street level. Landscape 
architecture firm Peter Walker and Partners designed the plaza and a 
``suspended paving system'' to support the swamp white oak trees 
growing on the plaza.
    Arborists selected and harvested trees from within a 500-mile 
radius of the World Trade Center site, with additional trees coming 
from locations in Pennsylvania and near Washington, D.C. (Maryland), 
areas impacted on September 11, 2001.
    Swamp white oaks were picked because of their durability and leaf 
color. In fall, the leaf color ranges from amber to a golden brown--and 
sometimes pink. The trees can grow to reach heights as tall as 60 feet 
in conditions similar to those on the plaza. The trees will never be 
identical, growing at different heights and changing leaves at 
different times, a physical reminder that they are living individuals.
                           sustainable design
    The Memorial plaza has been created as one of the most sustainable, 
green plazas ever constructed. Its irrigation, storm water and pest 
management systems will conserve energy, water and other resources.
    Rainwater will be collected in storage tanks below the plaza 
surface. A majority of the daily and monthly irrigation requirements 
will be met by the harvested water.
    The project is on target to achieve Gold certification in the U.S. 
Green Building Council's LEED for New Construction program. LEED is a 
third party certification program for green building, design and 
construction. The plaza is also built to meet requirements of New York 
State Executive Order 11 and the WTC Sustainable Design Guidelines, 
which both promote environment-friendly practices.
    This urban forest will flourish near adjacent green spaces, 
including Battery Park City, City Hall Park, Liberty Plaza, the 
churchyards at Liberty Church and St. Paul's Chapel as well as the 
planned Liberty Park just south of the Memorial.
                    the 9/11 memorial museum design
    Visitors to the Memorial Museum will be presented with a sequence 
of experiences that allow for individual and personal encounters within 
an overall context of a historical narrative. The nature of the Museum 
is such that the shell of the space, comprising existing foundations, 
the slurry wall and other in-situ elements of the site is as much an 
artifact as the content of the exhibitions.
    Visitors to the Museum will enter through a pavilion that houses an 
auditorium for public programming, a multi-purpose area for 
contemplation and refreshment and a private suite reserved for victims' 
family members. Two of the original steel tridents from the Twin Towers 
are enclosed within the pavilion's grand glass atrium, standing as 
references to the past, while signaling hope for the future.
    The Museum's entry pavilion was designed by the Norwegian 
architecture firm Snohetta. The Museum space below the Memorial is 
designed by the architecture firm Aedas. An introductory exhibit leads 
to a gently ramped ``ribbon,'' toward the core exhibitions at bedrock, 
the archeological heart of the World Trade Center site. This descent 
echoes the ramp that once was used by construction workers to help 
build the World Trade Center and the one used in the aftermath of the 
attacks for the recovery and clean-up of the site and by victims' 
family members to access bedrock on anniversaries of 9/11. From the 
ramp, vistas will provide a sense of the vastness of the site and the 
scale of the original Towers.
    Visitors will be able to stand between the footprints of the 
original Twin Towers and experience their scale, which will be 
referenced by two metal-clad, ethereal volumes. The ramp that brings 
visitors to the core Museum exhibitions has already been framed in 
steel and concrete.
    The final descent to the base of the site takes visitors alongside 
the Vesey Street Stair remnant--also known as the ``Survivor Stairs,'' 
used by hundreds to escape the destruction of the Towers on 9/11.
    Here the visitor arrives at bedrock level of the Museum which 
contains the foundations of the original World Trade Center. To the 
greatest extent possible the original column bases and concrete 
footings that supported the Twin Towers are exposed in the floor slab 
of the Museum, and they define a clear outline of the towers. Also on 
this level are the permanent and temporary exhibit galleries which tell 
the story of the events of 9/11 through artifacts, narratives, oral 
histories and multi-media displays.
    A powerful experience within the Museum is Foundation Hall an 
enormous space created by large sheer walls and long span trusses. This 
area references both the absence of the buildings and the enormity of 
the site. A preserved portion of the original World Trade Center slurry 
wall, which withstood the collapse of the towers and prevented the site 
from being flooded by the Hudson River, is displayed in here.
    At the center of Foundation Hall is the ``Last Column''--which was 
returned to the site in late August 2009 for permanent installation. 
The massive ``Last Column'' was covered in tributes from members of the 
construction trades, rescue personnel, and family members before the 
column was removed from the site, marking the end of the nine-month 
recovery efforts in May 2002.
    Visitors seeking a deeper encounter with the history, context, and 
documentation of September 11 may take advantage of activities in the 
classrooms or the auditorium.
    The Museum will be home to an ever-enlarging permanent collection 
of objects, memorabilia, documents, images, oral histories, film, and 
digitally-conceived artifacts. The collection will serve the needs of 
researchers, educators, curators, and members of the general public 
interested in the historical record of September 11, 2001. In addition, 
a searchable, digital Artists Registry provides web visitors with a 
virtual gallery of art created in response to the attacks of September 
11, and includes contributions made by a diverse artistic community 
using varied media--visual, tactile, and auditory.
                      the museum education center
    The Museum's Education Center will be comprised of four fully-wired 
classrooms, an orientation lobby and a screening room, all located 
adjacent to the core exhibitions in the archaeological heart of the 
World Trade Center site. In addition, educational programming is 
planned for the Museum's elegant auditorium, located on the 2''. floor 
of the Museum Pavilion building. The auditorium will be the locus of a 
wide variety of program offerings during public hours and also for 
special evening events. Among the planned array of programs are 
historical lectures, film screenings, and ``first person'' interview 
programs with first responders and survivors of the 9/11 attacks.
    The Education Center will be used variously for reception of 
visiting school groups, pre-visit orientation and post-visit 
debriefings, teacher training, seminars, and other activities making 
use of access to all museum data bases, archives and digital museum 
exhibitions.
    Committed to ensuring quality teaching of 9/11 in secondary and 
undergraduate classrooms, the Education Center will be the focal point 
for a vast array of educational programming, helping teachers to 
understand how they can best teach the history of 9/11 in the 
classroom, and a resource for the more than 600 September 11 memorials 
established throughout the United States, providing information and 
context on the attacks and their impact to communities across the 
nation.
                   financing the memorial and museum
    To date, over $700 million has been raised to support the building 
of the Memorial and Museum, including $250 million from the U.S. 
Department of Housing and Urban Development through the Lower Manhattan 
Development Corporation and $80 million from the State of New York. The 
organization has raised over $400 million from approximately 800,000 
contributions from all 50 states and 100 foreign countries. These funds 
have primarily been used for construction--bricks and mortar, as well 
as design and planning for the Museum, with remaining funds used for 
initial operations and maintenance.
    Future funds, including those raised through private donations, and 
revenue from Museum entrance fees or suggested donations and retail 
sales, provided by state and local governments, and those received 
through a Federal authorization and appropriations, will provide 
operating, maintenance and educational programming expenses. With full 
operations including site maintenance, administrators and security for 
a site twice attacked by terrorists, staffing the Memorial and Museum 
in its permanent state is projected to require several hundred full-
time employees; jobs that will include security officers, visitor 
center personnel, admission attendants, visitor service workers, retail 
attendants, custodial and maintenance personnel, historians, museum 
educators, exhibit coordinators, developers, researchers, and 
administrative functions such as fundraising, communications, 
accounting, human resources and information technology.
    In 2013, the first full year of Museum operations, total operating 
costs for the Memorial and Museum is budgeted at $50 to 60 million, 20-
30% of which are security-related costs. Of this, the 9/11 Memorial 
anticipates raising 2/3 of all income through donations and sales from 
visitors, private donors, state and local resources and is seeking 
authorization of Federal appropriations of $20 million annually 
providing in excess of a 100% non-Federal match.
         the federal role in supporting the memorial and museum
    Throughout our nation's history, Congress has stepped forward to 
authorize operating funds--in public/private partnership with non-
governmental organizations--for memorials and museums of national 
significance. Similar to congressional authorizations of the United 
States Holocaust Memorial Museum, Pentagon Memorial and the Kennedy 
Center, a Federal authorization of funds for the National September 11 
Memorial and Museum will help advance core national priorities at a 
site of international importance.
    With one million Memorial visitor passes from every state and more 
than 85 foreign countries already reserved and an anticipated five 
million visitors each year, it is projected that the Memorial and 
Museum will be one of the country's most visited venues, reflecting the 
profound impact the attacks had on our nation and the world. Yet the 
enormity of this project compares favorably to the budgets and cost-
sharing arrangements of other sites of national significance.

  <bullet> The non-profit Board of Directors of the United States 
        Holocaust Memorial Museum operates with annual expenses of 
        approximately $90 million. Current funding provides a 56% 
        Federal to 44% non-Federal matching arrangement with annual 
        Federal appropriations around $50 million.
  <bullet> The John F. Kennedy for the Performing Arts, a living 
        memorial to our 35th president, was constructed with a 
        combination of private contributions ($34.5 million), Federal 
        matching funds ($23.0 million), and $20.4 million in long-term 
        revenue bonds held by the U. S. Department of Treasury. Its 
        Board of Directors receives annual federal operating 
        appropriations in excess of $22 million.
  <bullet> In addition to federal appropriations to support its 
        construction, the Pentagon Memorial Fund, a 501(c)(3) non-
        profit organization, has received Defense Department grants to 
        maintain the memorial's operations. The Pentagon Memorial 
        further benefits from the ongoing services of the Defense 
        Washington Headquarters Services for site maintenance and 
        visitor support, and the Pentagon Force Protection Agency for 
        security.

    The National September 11 Memorial and Museum has raised nearly 
$500 million from nonfederal sources to take its place among these 
national shrines, and is committed to raising at least 2/3 of its needs 
from non-federal sources into the future. The authorization provided by 
S. 1537 will support our operations by supplementing private funding to 
provide security and screening at the World Trade Center site--a venue 
twice attacked by terrorists--and ensure the history of 9/11 and its 
implications for our nation and the future continue to be told.
    We urge your support for this legislation.
                                 ______
                                 
                                             9/11 Memorial,
                                    New York, NY, October 19, 2011.
Hon. Mark Udall,
Chairman, Energy and Natural Resources, Subcommittee on National Parks, 
        U.S. Senate, Washington, DC.
    Dear Senator Udall: As family members of the victims of the 
September 11, 2001 attacks and members of the Board of Directors of the 
National September 11 Memorial & Museum, it is an honor to lend our 
voices in support of the National September 11 Memorial & Museum Act of 
2011 (S.1537), the proposed legislation that would provide federal 
funding to this vital organization.
    Thousands of people across the country and around the world lost 
loved ones during the terrorist attacks on September 11, 2001 and 
February 23, 1993. The 2,983 people who perished were beloved husbands 
and wives, sons and daughters, whose lives were tragically cut short in 
the midst of everyday activities. And for many of us, the 9/11 Memorial 
is the final resting place of our loved ones. It is also our nation's 
tribute to those taken too soon in the largest foreign attack ever 
perpetrated on American soil. It is absolutely necessary that we 
preserve this place of remembrance for generations to come.
    In addition to providing solace to family members and friends of 
those killed, the 9/11 Memorial has already shown that it is a place 
where people from around the world are uniting to pay their respects 
and mourn the tremendous loss America suffered during these attacks. It 
is a tribute to people from every attack site--the World Trade Center, 
the Pentagon, and Flight 93--and it ensures that we will never forget 
those who perished, whose names are now forever inscribed in bronze 
around the twin reflecting pools.
    Since its opening just a little over a month ago, the Memorial has 
welcomed over a quarter of a million visitors, and those numbers will 
only continue to increase over the next year and as the Memorial Museum 
opens in 2012. The legislation Senator Inouye has introduced is vital 
to ensuring the ongoing care of the Memorial and Museum through a true 
public-private partnership.
    Approximately 800,000 private donations have already been made to 
the 9/11 Memorial and Museum, and through that incredible support we 
were able to open the 9/11 Memorial in time for the 10th anniversary of 
the attacks. In order to sustain daily operations and remain a world-
class monument and institution for education and learning, federal 
funding is crucial. The proposed legislation would account for 
approximately one-third of the organization's operating budget, with 
our organization continuing to maintain responsibility for the 
remaining two-thirds of funding, ensuring that our loved ones are 
remembered and honored for generations to come. Since opening the 9/11 
Memorial, our organization has received thousands of touching messages 
from our visitors, many of whom have come to visit the names of those 
they knew and loved. They speak of finding peace, of feeling deep 
gratitude for this beautiful national monument that will commemorate 
the 2,983 for all time. So many of these messages convey the heartfelt 
connection we all feel to this sacred space, conveying the comfort of 
knowing this tribute will be here for their grandchildren to find the 
names of those who came before them and learn about the heroes of our 
country.
    It has been overwhelming to see the outpouring of public support 
for the National September 11 Memorial & Museum over the years. Now, it 
is crucial that the federal government take a stake in this site and 
the future of our national tribute. Thank you for your consideration.
            Sincerely,
                                            Virginia Bauer,
                                  Wife of David Bauer, North Tower.
                                              David Beamer,
                           Father of Todd Beamer, United Flight 93.
                                          Debra Burlingame,
                   Sister of Charles F. Burlingame, III, Flight 77.
                                         Paula Grant Berry,
                                  Wife of David Berry, South Tower.
                                          Christy A. Ferer,
                                   Wife of Neil Levin, North Tower.
                                              Lee A. Ielpi,
           Father of Jonathan Ielpi, New York City Fire Department.
                                               Monica Iken,
                                 Wife of Michael Iken, South Tower.
                                            Thomas Johnson,
                              Father of Scott Johnson, South Tower.
                                     Anthoula Katsimatides,
                          Sister of John Katsimatides, North Tower.
                                              Thomas Roger,
                                   Father of Jean Roger, Flight 11.
                                 ______
                                 
 Statement of Joyce & Russell Mercer, Mother & Stepfather of FF Scott 
                      Kopytko E4, L15, on S. 1537
    When this country is at a time in it's history when they can't 
afford to pay their bills, and a point in history when elected 
officials are talking about reducing S/S and Medicare for its senior 
constituents.
    We are now learning that Congress and the Senate will be voting on 
a bill to give the 9/11 Memorial Museum 20 million dollars a year to 
start off with and raising it to a higher figure each year, to support 
it's existence. This is insane, where is the check and balance for the 
9/11 Memorial Museum Foundation??? (Who will be watching the store?)
    When the top four (4) executives make more than $320,000 a year in 
salaries each. This is a crime!!!
    The President of the United States makes only $400,000 a year. 
Please check the figures of the staff that runs the day to day 
business, 5.3 million dollars for 87 personnel. If this was a private 
corporation somebody would be going to jail.
                                 ______
                                 
Statement of Joel E. Dunn, Executive Director, Chesapeake Conservancy, 
                               on S. 1303
    Chairman Udall, Mr. Paul, and members,
    Thank you for the opportunity to enter a statement today. I am Joel 
Dunn, executive director of the Chesapeake Conservancy, a non-profit 
group that supports the conservation of the Chesapeake region's 
ecological, cultural and historically significant landscapes and the 
development of the Capt. John Smith Chesapeake National Historic Trail.
    The Chesapeake Conservancy wholeheartedly supports Senate Bill 
1303--a bill to authorize the Secretary of the Interior to establish 
Fort Monroe National Historical Park in the Commonwealth of Virginia 
and for other purposes.
    Four hundred and four years ago, Captain John Smith and the 
Jamestown settlers named the peninsula near the mouth of the Chesapeake 
Bay on which Fort Monroe is located. They called it Point Comfort, for 
it offered them sheltered waters after their arduous journey to the New 
World.
    Today the Fort and point continue to offer valuable benefits to the 
nation and the region around Hampton Roads.
    Fort Monroe, and the 565-acre peninsula on which it sits, now known 
as Old Point Comfort, is steeped in history and rich in natural beauty.
    The Jamestown settlers put their first outpost here. Called Fort 
Algernourne, it was constructed here in 1609 to watch for an expected 
attack from Spanish ships. Algernourne was the first of several forts 
to be built at the site. The last was Fort Monroe.
    During the War of 1812, the British fleet had easy entry to the 
Chesapeake. Following the war, construction of Fort Monroe began to 
prevent a similar invasion. It is the largest stone fort ever built in 
the United States and was named in honor of President Monroe.
    The first ship carrying African slaves disembarked its cargo at 
Point Comfort in 1619.
    Two centuries later, early in the Civil War, Fort Monroe's 
commander, General Butler, received three men who had fled their 
enslavement and sought refuge at the fort. When asked by a lawyer 
representing their owner to return them, Butler enunciated a policy 
declaring them ``contraband of war,'' an act that was arguably the 
beginning of the end of slavery.
    Many celebrated figures of American history lived, worked or were 
imprisoned here. Harriet Tubman and Booker T. Washington worked here. 
Edgar Alan Poe and Robert E. Lee were stationed at the Fort as young 
soldiers. President Lincoln and General Ulysses S. Grant visited the 
Fort. Jefferson Davis and Chief Black Hawk were imprisoned here.
    But just as important as its history, is the Fort's location. Old 
Point Comfort's beaches offer a rare natural refuge for the Hampton 
Roads region's residents. The peninsula is a significant stop for birds 
migrating across the Chesapeake Bay. Stands of live oaks, some of them 
old enough to have witnessed the Jamestown settlers' landing, grace the 
Fort's grounds and the peninsula. These historic and natural resources 
provide a wealth of opportunities to local residents and to the nation.
    A bipartisan coalition of area citizens, Federal, state and local 
elected officials, and not-for-profit organizations, has 
enthusiastically supported making the Fort and the peninsula a National 
Park. It has called on the President to designate the property a 
National Monument under the Antiquities Act and has supported S. 1303.
    By making the Fort and Old Point Comfort a National Park, Congress 
would secure the economic and employment engine that the Fort Monroe 
military installation provided to the Hampton area and the Commonwealth 
of Virginia through responsible reuse of the property. A park here 
would increase tourism and create a great urban park for the Hampton 
Roads area.
    A Fort Monroe National Park would advance commitments made under 
Chesapeake Executive Order #13508 to expand public access to waters and 
open spaces of the Chesapeake Bay and its tributaries from Federal 
lands and to conserve the Chesapeake's iconic landscapes.
    The Point is directly on The Capt. John Smith Chesapeake National 
Historic Trail. A National Park here would afford much-needed access to 
the trail.
    We urge you to support S. 1303 and make Fort Monroe a National 
Park. By doing so, you would conserve a vital part of the Nation's and 
the Chesapeake's history.
    Thank you for the opportunity to address you today and to put this 
statement into the hearing record.
                                 ______
                                 
 Statement of Hon. Paul Strauss, U.S. Senator Elected by the Voters of 
                  the District of Columbia, on S. 544
    Chairman Udall and Members of the Senate Energy and Natural 
Resources Subcommittee on National Parks, I am Paul Strauss, the U.S 
Senator elected by the voters of the District of Columbia. In this 
capacity, I appreciate the opportunity to provide this statement on 
behalf of my constituents in the District of Columbia. I wish to 
express my support for bill S. 544 authorizing the secretary of the 
interior to conduct a study of alternatives for commemorating and 
interpreting the role of the Buffalo Soldiers in the early years of the 
National Parks and for other purposes.
    In 1866, an act of Congress created six African-American units, 
identified as the 9th and 10th cavalry and the 38th, 39th, 40th, and 
41st infantry regiments. The infantry units were later reorganized to 
form the 24th and 25th infantry regiments. According to the Buffalo 
Soldiers National Museum, the name Buffalo Soldiers dates back to 1867, 
when the Cheyenne warriors gave the 10th cavalry the nickname of ``Wild 
Buffalo.'' The name referred to their fierce fighting ability and 
became a generic term for all the African-American soldiers who bravely 
and courageously served America during times of war. The important role 
they played in our nation's history is currently commemorated by the 
Buffalo Soldiers National Museum, which received a certificate of 
congressional recognition from the United States in 2001.
    The role of the African-American Buffalo Soldiers is not just 
restricted to the defense of the United States as they also made 
outstanding contributions towards the development of our first National 
Parks. Before civilian management, the United States Army was 
administrating Sequoia and Yosemite Parks. The participation of the 
Buffalo Soldiers from the 24th Infantry and the 9th Cavalry in 
protecting both Parks in 1899, 1903 and 1904 has been nearly forgotten 
and is little known by our people and our youth. Approximately 500 
Buffalo Soldiers served in protecting these parks, with duties ranging 
from building roads, preventing illegal logging, evicting poachers and 
extinguishing forest fires. Despite the added burden of racism that 
plagued society, their contributions to our National Parks is 
reflective of African-American dedication to our country in a 
historical transition period. I feel it is vital to promote their 
legacy and accomplishments in the protection and development of our 
National Parks in the Post-Civil War era.
    Even though the Buffalo soldiers wore the United States Army 
uniform, they were still part of racially segregated units. Colonel 
Charles Young was one of the only black men to serve as a Captain in 
the Cavalry commanding a segregated black company. In 1903, he received 
the order to take his troops to Sequoia National Park for the summer. 
As lead park rangers, Young and his troops performed outstanding work 
during this period. The roads they built are still in use today and 
have served millions of visitors. The strong imprint they left in our 
National Parks has to be widely recognized and carefully preserved. 
They are a deep reflection of black men who with courage, honor and 
distinction successfully spawned their way and overcame the prejudices 
of a racially segregated society. They remain an inspiration to anyone 
who faces life challenges and sets a strong example for millions of 
African-Americans. National memory is the duty of each citizen. 
Authorizing this study will connect our citizens with our national 
heritage and National Parks. I believe a future commemoration of the 
Buffalo Soldiers in the early years of the National Parks will promote 
greater understanding of our history, national unity and preservation 
of our natural resources.
    While S. 554 is about commemorating past history, not redressing 
present wrongs, the Buffalo Soldiers in many ways bear striking 
similarities to the brave men and women from District of Columbia who 
put on a uniform and fight in this nation's armed forces today. 
Although they no longer fight in racially segregated units, these DC 
residents serve their nation at home and abroad while the jurisdiction 
that sends them is the subject of continued political segregation, 
based on DC's lack of Statehood. Bill S. 554 is an important and 
positive step in commemorating the history of African-Americans who 
fought for a country that denied them equal rights. The story of these 
brave troops should be commemorated as a reminder to us all that there 
are still American soldiers from predominately African-American 
jurisdictions like the District of Columbia and other territorial 
jurisdictions that fight for this nation, but lack voting members of 
Congress on the decision to send them off to war. In closing, I would 
like to thank Ms. Solene Jeanjean, a member of my legislative staff for 
her assistance in the preparation of this prepared statement for the 
record.

                                    

      

</pre></body></html>
